<html>
<title> - HUMANITARIAN ASSISTANCE FOLLOWING MILITARY OPERATIONS: OVERCOMING BARRIERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
   HUMANITARIAN ASSISTANCE FOLLOWING MILITARY OPERATIONS: OVERCOMING 
                                BARRIERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2003

                               __________

                           Serial No. 108-88

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

91-134              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2003....................................     1
Statement of:
    Garner, Lieutenant General (retired) Jay M., president, 
      Sycoleman, former Director, Office of Reconstruction and 
      Humanitarian Assistance....................................    21
    Westin, Susan S., Managing Director, International Affairs 
      and Trade, General Accounting Office; Joseph J. Collins, 
      Deputy Assistant Secretary of Defense, Stability 
      Operations; Richard Greene, Principal Deputy Assistant 
      Secretary of State for Population, Refugees, and Migration; 
      and James Kunder, Deputy Assistant Administrator for Asia 
      and the Near East, U.S. Agency for International 
      Development................................................    40
    Willcuts, Tammie, humanitarian operations specialist, Save 
      the Children; Serge Duss, director of public policy and 
      advocacy, World Vision, Inc., USA; and Pat Carey, senior 
      vice president for programs, Care..........................   102
Letters, statements, etc., submitted for the record by:
    Bell, Hon. Chris, a Representative in Congress from the State 
      of Texas, prepared statement of............................    20
    Carey, Pat, senior vice president for programs, Care, 
      prepared statement of......................................   129
    Collins, Joseph J., Deputy Assistant Secretary of Defense, 
      Stability Operations, prepared statement of................    61
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee, article entitled, ``Iraq, We Win. 
      Then What?''...............................................    11
    Duss, Serge, director of public policy and advocacy, World 
      Vision, Inc., USA:
        Letter dated July 17, 2003...............................   112
        Prepared statement of....................................   117
    Greene, Richard, Principal Deputy Assistant Secretary of 
      State for Population, Refugees, and Migration, prepared 
      statement of...............................................    67
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, July 18, 2003 article...................     7
    Kunder, James, Deputy Assistant Administrator for Asia and 
      the Near East, U.S. Agency for International Development, 
      prepared statement of......................................    74
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        A list of the men and women who have died in battle......    90
        Prepared statement of....................................     3
    Westin, Susan S., Managing Director, International Affairs 
      and Trade, General Accounting Office, prepared statement of    43
    Willcuts, Tammie, humanitarian operations specialist, Save 
      the Children, prepared statement of........................   105


   HUMANITARIAN ASSISTANCE FOLLOWING MILITARY OPERATIONS: OVERCOMING 
                                BARRIERS

                              ----------                              


                         FRIDAY, JULY 18, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2318, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Duncan, Kucinich, Lynch, 
Maloney, Sanchez, Ruppersberger, Bell and Tierney.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Ph.D., senior policy advisor; 
Thomas Costa, professional staff member; Robert A. Briggs, 
clerk; Joe McGowen, detailee; Chris Skaluba, fellow; David 
Rapallo, minority counsel; and Jean Gosa, minority assistant 
clerk.
    Mr. Shays. I would like to call this hearing to order.
    It has been observed that modern warfare consumes 
governments and civic order, leaving anarchy and chaos in its 
wake. Lasting victory can only be declared when security, the 
rule of law, and economic vitality have been restored.
    The liberation of Iraq was a modern war. Superior military 
force brought down a brutal, repressive regime, but also 
severed all the sinews of a highly centralized governmental 
control system. The resulting lawlessness and instability 
dispersed the field of fire into the alleys and byways of 
Baghdad where the battle for the hearts, minds, health, and 
welfare of the Iraqi people is also being waged. Coalition 
armed forces must defend against the elusive, but lethal 
remnants of the Hussein regime. At the same time, Ambassador 
Paul Bremer and the Coalition Provisional Authority, CPA are 
working to build the physical infrastructure and democratic 
institutions needed to sustain a victory still being purchased 
in blood.
    On May 13th, General Jay Garner, then serving as Director 
of the Department of Defense [DOD] Office of Reconstruction and 
Humanitarian Assistance, set before the subcommittee 11 
essential tasks, which, if achieved by now, would put 
assistance efforts in Iraq on what he called a positive slope 
to success. They were, No. 1, establish security in Baghdad; 
No. 2, pay Civil Service salaries, catch up by June 30, 2003; 
No. 3, get police trained and back to work; No. 4, get 
government ministry functioning; No. 5, restore basic services 
in Baghdad to prewar levels or better; No. 6, prevent a fuel 
crisis; No. 7, purchase crops; No. 8, solve food distribution 
system gaps; No. 9, install town councils in all communities; 
No. 10, reestablish provincial governments, target specific 
needs; finally No. 11, prevent disease, such as cholera 
outbreaks.
    At that hearing, representatives of nongovernmental 
organizations [NGO's], providing humanitarian assistance in 
Iraq, also testified on the urgent need for basic security and 
their hopes for a more effective civil/military coordination 
that does not compromise their impartiality. Yesterday, nine 
relief agencies wrote the President requesting stronger steps 
to increase security, mobilize the Iraqi civil service, and 
provide greater access to CPA officials.
    Today we ask what progress has been made achieving these 
goals, what lessons from previous conflicts can be applied to 
Iraq, and what barriers will still block the path of food, 
medicines and other essentials needed by the Iraqi people?
    Winning the war required courage, strength and speed. 
Securing the peace demands humility, flexibility and patience: 
Humility to acknowledge the enormity of the task, flexibility 
to learn and adapt, and patience to nurture the democratic 
aspirations of a long-oppressed people.
    To help us better understand the pressing issues 
surrounding humanitarian assistance in Iraq, we are joined this 
morning by three panels of witnesses. They all bring impressive 
expertise and experience to our discussion. We are grateful for 
their time and their dedication, and we look forward to their 
testimony.
    Testifying first will be Lieutenant General (Retired) Jay 
M. Garner, former Director of the DOD Office of Reconstruction 
and Humanitarian Assistance in Iraq. In May, General Garner 
provided the subcommittee a videotape statement from Baghdad on 
the status of coalition efforts to stabilize postwar Iraq. We 
agreed then that we would invite the General to testify and 
answer questions after he returned to the United States, and he 
agreed to do that, and he is here with us. He joins us today as 
a private citizen, but as a citizen to whom this Nation owes a 
great deal for his long and most distinguished career and his 
continued willingness to serve whenever asked.
    General, we welcome you. It's good to have you here in the 
flesh.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.001
    
    [GRAPHIC] [TIFF OMITTED] T1134.002
    
    Mr. Shays. And at this time I would call on Mr. Kucinich, 
the ranking member of the subcommittee.
    Mr. Kucinich. Thank you very much, Mr. Chairman, for 
calling this hearing today. And welcome to General Garner. 
Thank you for your service to our country.
    I'd like to call to the subcommittee's attention two 
newspaper articles. The first is from May 2, 2003, from a 
Newsday in Long Island. As we remember, on May 1st the 
President landed on the U.S.S. Abraham Lincoln off the coast of 
San Diego, and he stood before the U.S. servicemembers and the 
American people, and he declared victory in Iraq. He said the 
hostilities were over and unfurled a banner that read, 
``Mission Accomplished.''
    Now, in contrast, here is a front page of yesterday's 
Washington Post: Guerilla war acknowledged. Army General John 
Abizaid, the new head of the U.S. Central Command, acknowledged 
for the first time that American troops are in a, ``classical 
guerilla-type war,'' against rogue Iraqi forces and that the 
attacks are growing. They're growing in organization and 
sophistication.
    And when the President first came to office, he promised to 
level with the American people. Recently it became clear that 
the President made misleading statements in his State of the 
Union Address relating to the intelligence on which his 
decision to go to war in Iraq was based. The White House has 
now conceded that the President should not have claimed in his 
speech that Iraq attempted to obtain uranium from Niger, 
because this allegation was based on crudely forged documents. 
At the same time the White House still appears to be clinging 
to the idea that it was forthright with Congress and the 
American people, using phrases like ``technically accurate,'' 
that the President no doubt would have criticized if someone 
else said them. But the State of the Union Address is just one 
part and one particularly crystallized example of a larger 
pattern in which the President and his White House advisors 
stretch the truth, overstate the threat, and understate the 
true risks, the costs.
    Anyone looking at the two headlines I just showed can see 
that the administration did not adequately prepare and 
implement a plan to achieve security in postwar Iraq, and they 
definitely did not level with the American people about it. But 
this pattern began even before the war. Veteran military 
officials with decades of experience warned the White House 
that the task of security was a daunting problem. The Army's 
Chief of Staff General Eric Shinseki testified before the 
Senate Armed Services Committee. When asked how many troops 
were necessary to secure Iraq after the war, he said, ``several 
hundred thousand.''
    Not only did officials in the administration refuse to 
listen, they actively attacked these military experts. Two days 
after the general testified, the administration sent Deputy 
Defense Secretary Paul Wolfowitz to publicly rebuke him, saying 
his estimate was, ``way off the mark.'' Today it is clear Mr. 
Wolfowitz was off the mark. He is in Baghdad this morning, and 
he will see firsthand the extent of his miscalculation.
    This week the Nation passed a grave threshold. The lives of 
more U.S. servicemen and women have now been lost in combat 
than the total number of U.S. personnel killed in combat during 
the first Gulf war. By my last count 147 servicemembers have 
been killed in combat, surpassing the number killed in the 
first Gulf war. In the near future I'm concerned we may surpass 
another awful milestone. We will have lost more U.S. lives than 
in the first Gulf war just since the President declared the end 
of hostilities in his aircraft carrier speech on May 1, 2003.
    Clearly the mission has not been accomplished. The 
hostilities are not over. This question relates to the 
nongovernmental organizations represented here today and 
whether they can effectively deliver their critical services. I 
look forward to hearing from representatives from Save the 
Children, CARE, and World Vision, who will testify in the 
second panel. Your work is tremendously important, and the fact 
that you're still doing it despite the monumental increases and 
challenges you face is a testimony to your commitment and your 
faith in humanity.
    But this issue also relates to the people of Iraq who have 
been starved of hope for so long and have been promised, 
promised by this administration that they will have a new 
start.
    Thank you very much, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.003
    
    [GRAPHIC] [TIFF OMITTED] T1134.004
    
    [GRAPHIC] [TIFF OMITTED] T1134.005
    
    Mr. Shays. The third panel is where we have the NGO's. 
We'll have the government witnesses in the second panel. That's 
a change.
    Mr. Kucinich. Thank you, Mr. Chairman. Appreciate it.
    Mr. Shays. At this time the Chair recognizes the 
distinguished gentleman from Tennessee Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    I heard former Senator Dole on the national radio program 
this morning remarking critically about the fact that President 
Clinton had promised that we would be out of Bosnia by the end 
of 1996, that would we would stay there just 1 year, and we're 
still there.
    I remember reading in Newsweek Magazine just before the war 
started in Iraq that country had a total GDP of $58 to $60 
billion. Now by some estimates we've spent--we passed that 
supplemental appropriation for $830 billion for the war. Nobody 
seems to know exactly how many billions we've spent so far, but 
it's many, many billions. A few days ago Secretary Rumsfeld 
said we're spending almost $4 billion a month there now.
    I can tell you this: Many Americans, and I can tell you a 
great majority of people in my district, are questioning why. 
Why in a time of $455 billion deficits are we doing all this, 
when a few days ago the leading Shiite cleric, big opponents to 
Saddam Hussein, and the leader, the most respected leader, of 
the largest population group in Iraq said that the United 
States should get out and leave Iraq to the Iraqis? I've heard 
all the cliches. I know that it's--the politically correct, 
sophisticated, intellectual thing is to say that we have to do 
this, and that we have to be there for many years to come, but 
I can tell you more and more people are asking why.
    Fortune Magazine said in its November 25th issue before the 
war started that--an article entitled ``We Win, What Then''--
and they said that if we stayed in Iraq that we were going to 
make our troops sitting ducks for Islamic terrorists. A few 
days ago we read about an American soldier being shot in the 
head at point-blank range as he stood in line to get a soft 
drink. We're reading more and more stories like that. I know we 
have people in this country and all of these departments who 
want to feel like world statesmen and make their name in 
history, but they're doing this at great cost to the American 
people, and they're risking the lives of young Americans. And I 
can tell you that I think the sooner we get out of Iraq, the 
better off everybody is going to be.
    Thank you very much, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.006
    
    [GRAPHIC] [TIFF OMITTED] T1134.007
    
    [GRAPHIC] [TIFF OMITTED] T1134.008
    
    [GRAPHIC] [TIFF OMITTED] T1134.009
    
    [GRAPHIC] [TIFF OMITTED] T1134.010
    
    [GRAPHIC] [TIFF OMITTED] T1134.011
    
    [GRAPHIC] [TIFF OMITTED] T1134.012
    
    Mr. Shays. Before asking you to address this, General 
Garner, we have Mrs. Maloney, a very effective Member.
    Mrs. Maloney. Thank you, Mr. Chairman and ranking member, 
and thank you, General, for your wonderful service to our 
country.
    And I first would like to state that our troops did an 
excellent job in Operation Iraqi Freedom, and we are all proud 
of their dedication and commitment to freedom and democracy, 
and their success really to this point. They were assigned a 
very difficult task, and they performed it in an extremely 
capable and efficient manner, and we are all grateful.
    I would also like to thank the representatives we'll be 
hearing from later from the NGO's, CARE, World Vision, Save the 
Children, for their ongoing work in Iraq to help the Iraqi 
people. You are our best diplomats, and we thank you for the 
important work that you do.
    According to all reports, we won the war in Iraq. The 
question is are we going to win the peace? And every day that 
we remain in Iraq, we are putting U.S. lives at risk. Since 
President Bush's May 1st speech, 36 U.S. soldiers have been 
killed in the so-called peacetime, and today it has been 
acknowledged that it's a guerilla-type war as the front page of 
the Washington Post yesterday that we're confronting a whole 
different kind of challenge.
    I met yesterday with the President of the U.N. General 
Assembly. I represent the United Nations, it's in my district, 
and I'm proud of the work that they have done in places such as 
Afghanistan, Kosovo, Bosnia and East Timor, working with the 
United States and our allies to bring stability to the regions. 
And we can rely on them because they have organizations such as 
UNCA, UNICEF, UNFPA and others that have been successful 
working in 170 different nations, with roughly 150 other 
nations supporting them. So I feel that as we go forward, we 
should do it in a more multilateral way with support from other 
countries. And I would say the United Nations with--working 
with the United Nations, our Arab allies could help us with the 
peace there and assume some of the responsibilities so that our 
troops are more protected and the necessary services and 
supplies are given to the Iraqi people.
    We are spending, my colleague said, 4 billion; I read 
yesterday it was 3.9 billion. Whatever you call it, it's a lot 
of money a month in Iraq. As we are galloping toward a $455 
billion deficit here at home, it would be, in my opinion, 
prudent that we would share the burden in Iraq not only with a 
multilateral approach to the peacekeeping, but share the burden 
and the cost of keeping the peace. So I am hopeful that 
Secretary Powell will succeed in securing a U.N. mandate so 
that other governments can be brought in and other 
nationalities can be there to help with them.
    After September 11, which happened in the district that I 
represent, I lost 500 constituents in it, the world literally 
came to our side and aided us jointly in our war on terrorism, 
and it represented global cooperation at its best. And now that 
we are in Iraq, it is our duty to American citizens and Iraqi 
citizens and the citizens of the world, in my opinion, to work 
in a more international, cooperative way with other countries 
in not only bringing the peace, but humanitarian assistance and 
really helping to restore peace and democracy in Iraq for the 
Iraqi people.
    But I look forward to your comments, General. We thank you 
for your service and thank you for this hearing today.
    Mr. Shays. Thank you.
    We've been joined by Mr. Lynch.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Garner, I want to welcome you before the committee. 
Last time we spoke, we were actually at your headquarters in 
Baghdad, and I want to thank you for your good work in that 
area. I know that we had a menu of problems that we were 
dealing with at that time both from a security point of view 
vis-a-vis our troops; also a humanitarian; a civil 
administration task that was in hand, but still not quite 
stabilized. And I'll be very interested in hearing about the 
progress since May 18th when we were in Baghdad.
    But I do thank you for your courtesy in helping this 
committee with its work. Thank you, sir.
    Mr. Shays. Ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose. And without objection, so ordered.
    [The prepared statement of Hon. Chris Bell follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.013
    
    Mr. Shays. I ask further unanimous consent that all Members 
be permitted to include their written statements in the record, 
and without objection, so ordered.
    General Garner, we swear our witnesses in. If you would 
just rise, we'll swear you in. This is an investigative 
committee. We do that.
    [Witness sworn.]
    Mr. Shays. Note for the record the witness has responded in 
the affirmative.
    Again, General Garner, it is nice to have you here. We 
appreciated the very extensive video that you sent when you 
were actually in Baghdad. It's nice to close the loop. We 
recognize without your having to say that there are some 
limitations. You've left Iraq, so you can't tell us what 
happened yesterday, but you can give us some insight on the 
effort to begin this process, and that will be very helpful to 
this committee.
    We thank you, and with that we welcome your testimony.

   STATEMENT OF LIEUTENANT GENERAL (RETIRED) JAY M. GARNER, 
PRESIDENT, SYCOLEMAN, FORMER DIRECTOR, OFFICE OF RECONSTRUCTION 
                  AND HUMANITARIAN ASSISTANCE

    General Garner. Thank you, Mr. Chairman. I thank all of the 
Members. It's an honor to be here, and I thank you for your 
kind words and your support of our team and your support of 
what is going on in Baghdad even today.
    Let me give you a quick synopsis of my tenure there. On 
January 17th I accepted the task from the Secretary of Defense. 
On January 22nd I tasked the interagency for people, the people 
began coming in this the first week in February. On March 16th 
we deployed to Kuwait. On April 21st I went to Baghdad with 
eight people, and on April 24th my team from Kuwait arrived in 
Baghdad. And on May 10th I met Ambassador Bremer in Qatar, and 
he and I went to Baghdad. On June 3rd, with my task complete, I 
departed Iraq.
    I was given an excellent team by our government. I had five 
retired flag officers. I had four retired Ambassadors and four 
active Ambassadors. The overwhelming majority of volunteers I 
got from each of the agencies were excellent people. Sometimes 
we're a little short on quantity, but we were never short on 
quality.
    We planned for a humanitarian crisis. We felt that there 
would be a large number of refugees and displaced people at the 
termination of the war. I can go into that further later if you 
like. We also planned on substantial reconstruction of the 
infrastructure and the restoration of the oil fields. We also 
planned on the restoration of the ministries at the national 
level and restoration of the local governments.
    The actual situation we found as we entered into Iraq and 
got into Baghdad, was there really was no humanitarian crisis. 
There were humanitarian issues, but no crisis at all, and we 
had preserved the oil fields. Now you can credit that to the 
skill of the military and specifically to the skill of 
Lieutenant General Dave McKiernan, who is the Land Force 
Commander, and his two Corps Commanders, General Scott Wallace 
of V Corps and General Conway of the 1st Marine Expeditionary 
Force.
    The immediate problem we had was the restoration of basic 
services and the reconstitution of the infrastructure. One of 
the problems with the infrastructure is that it had been 
absolutely abandoned for the last 30 years. No money was spent 
on it. I can go into that more if you'd like. But to deal with 
this we established immediately the April 11th task that the 
chairman went over as he opened this session.
    What I'd say is despite the conditions that we had, the 
environment that we found initially was we're dealing in a 
country the size of California, had no power, shortage of 
water, no police, no communications, and 17 of the 23 
ministries had been destroyed mostly by looting, not by 
military damage or collateral damage. But despite these 
conditions, the magnificent Americans and British that I had on 
my team, I think in the first 30 days they established and paid 
a $20 minimum payment, emergency payment, to all the public 
service workers. They began payments to all pensioners. On May 
24th they began paying salaries to all the public servants. 
That's close to 2 million people. They arranged to purchase the 
harvests. They restored basic services to 80 percent of Iraq. 
They restarted all the schools, returned the police forces to 
duty, installed town councils in 17 of the 26 cities above 
100,000 people, re-established the ministries with interim 
leadership, found workplaces for the ministries, began the 
refurbishment of buildings, and, very importantly, they avoided 
epidemics and met all the pressing health needs.
    Now, this was accomplished by civilian and military teams, 
very dedicated people that are working in temperatures above 
120 degrees, with very little sleep. I'll guarantee you all of 
them missed at least one meal every day.
    Things are still hectic, but I see the glass as half full. 
I think in Ambassador Bremer we have a very talented, very 
skilled diplomat who is doing all the right things. He's got a 
wonderful team over there. And on top of that, Iraq is not a 
Third World country. The people of Iraq are extremely skilled. 
They have excellent engineers, excellent doctors, excellent 
academics, and they are marvelous administrators, as you find 
in most totalitarian regimes. On top of all that, they have the 
wealth of oil that's never been shared with them before and 
will be shared with them now.
    So I know where we are is a dicey road right now. I know 
there's a lot of complaints about where we are. But I see this 
getting better. The noose is tightening on the terrorists. I 
think the noose is tightening on Saddam Hussein. I think in 4 
or 5 years from now, you'll see a completely different Iraq. 
You will look across and see an Iraq with a democratic 
government, an Iraq that's secular, an Iraq that has a good 
economy, and I think that will establish the baseline for 
change in the Middle East without doing anything else. There is 
incredible potential for our Nation to make this successful 
because we--by making it successful, we will change what's 
going on in the Middle East.
    So thank you, Mr. Chairman and Members, for the opportunity 
to come here and talk to you. I'm ready to answer any of your 
questions that I can answer.
    Mr. Shays. Thank you, General.
    Why don't I begin and just ask you, in your judgment, what 
are the basic humanitarian needs of the Iraqi people, such as 
are they starving, do they need potable water, do they lack 
shelter, are they waiting for medicines and medical care?
    General Garner. The first problem is a problem of neglect 
of 30 years. There has been no money spent on the Iraqi people 
during the reign of Saddam Hussein, the services available are 
minimal to the people. And the facilities, you can go into the 
largest hospital in Basra, and there is open sewage running 
down the middle of the street between the buildings. So the 
humanitarian needs really are in the form of infrastructure.
    I'll give you a quick story. I walked into the oil fields, 
and outside Basra and I walked into the control room, and there 
were two British gentlemen there about my age wearing British 
uniforms. I knew they were too old to be in the army. I said 
``are you guys in the army?'' They said, ``oh, no, that's what 
they gave us to wear.'' I said, ``what are you doing here?'' 
They said, ``well, we're here getting the oil field stood back 
up again.'' And I said, ``why are you here?'' They said, 
``well, we're both retired, and we began operating with British 
Petroleum in 1960, and it was on this kind of equipment, and 
we're the only people they could find that knew how this kind 
of equipment worked again.'' Now, that's not just the oil 
fields, that's everything in Iraq because nothing has been 
spent on the infrastructure.
    So the basic humanitarian needs are really to restore the 
infrastructure that services the people, such as the health, 
the school, the food, and that type of thing.
    Mr. Shays. I had a constituent who said we have been out of 
Iraq for so long, we don't know what the hell is going on 
inside. This was before the war began. And he said that we have 
no real intelligence. It strikes me that this is kind of 
obvious information that I wasn't aware of before the war. I'm 
wondering how prepared our military and our civilian folks were 
for this just unbelievable backwardness in its infrastructure. 
In other words, we tell these stories almost in disbelief, as 
if we didn't know before. Maybe you could just touch on that.
    General Garner. Well, I think you're correct. I think we 
had very little knowledge of what goes on inside Iraq because 
it was so--Saddam Hussein had everything tightened down so 
tight that you couldn't get information out of there. I don't 
think we had as much knowledge as we would like to have had of 
what was going on there. And certainly the infrastructure, I 
knew the infrastructure would be bad, but it was worse than I 
thought it would be. The only place where you have good 
infrastructure there is in the palaces.
    Mr. Shays. Why weren't we able to take advantage of the 
numerous defectors that were involved? Let me ask you, did you 
have in your organization any Iraqis who had defected who were 
there to help you with providing this information? Did they, in 
fact, know about the actual backwardness of this infrastructure 
and just think that maybe you knew and didn't bother to tell 
us, or did we not think to ask? It just seems to me like this 
shouldn't have caught us by surprise.
    General Garner. By the time we deployed to Baghdad, we had 
about 180 free Iraqis that were in our organization, but most 
of when had been free Iraqis for several years, and they 
eventually deployed to Baghdad to help us. The free Iraqis 
never mentioned to me or anyone else that I know of how bad the 
infrastructure was, but that infrastructure was all they knew. 
So I can see why they wouldn't have mentioned that to us.
    Mr. Shays. Now, a lot of us voted to use force against 
Saddam Hussein, some didn't, but even those who have voted to 
use force may have a disagreement on our task now. I think, for 
instance, that I have a big disagreement with my Republican 
colleague Mr. Duncan. I believe that if we were to fail, if we 
were to leave Iraq, if we were to fail, that anything we said 
in the future would almost be meaningless. I guess I'd like you 
to touch on the issue of whether there's room for failure and 
what the consequences would be if we failed to stay the course, 
failed to help Iraq introduce democratic government, introduce 
a market economy and grow economically. If you could tell us 
about your view of that.
    General Garner. Well, first of all, Mr. Chairman, I can't 
imagine that we would walk away from this. If we did, and if 
Saddam Hussein is still alive, he'd return immediately, and our 
credibility worldwide would be zero.
    Second of all, like I said earlier, the potential for us 
staying the course, and I think we will stay the course, in 
being successful, and I believe we will be successful. The 
potential is incredible, because restoring Iraq, putting in a 
democratic government, having a Constitution, having a 
government that expresses the freely elected will of the people 
will change the nature of the Middle East. You'll have the 
Iranians looking across saying, ``why can't I have that; the 
Syrians looking across saying, why can't I have that; the 
Egyptians and Saudis the same thing.'' So the potential there 
is enormous.
    Mr. Shays. Before recognizing Mrs. Maloney, I would also 
say some Members that felt it was not wise that we went into 
Iraq now that we're there clearly don't want us to leave and 
don't want us to fail.
    General Garner. Well--you know, I had over 70 meetings with 
Iraqi people, garbage workers, schoolteachers, police, 
politicians etc. Every third day I walked through the market, 
and I get 400 people following me, and I would stop and talk to 
them. When you begin talking with them, they raise hell with 
you in the first 20 minutes, like they do in any town meeting 
in America. But at the end of that, it gives you a chance to 
address all their problems, tell them what you're doing and say 
thank you for your time. As I walked away in all 70 plus 
meetings, I always got a thumbs up. ``Thank Mr. George Bush for 
taking away Saddam Hussein, and please don't leave.''
    I don't like the words ``silent majority,'' but there is a 
tremendous amount of silent majority of Iraqi people who are 
glad we're there, who are thankful we're there and don't want 
us to leave.
    I think right now the tasks that are in place to be done 
are being done. We just started reconstituting the Army and we 
just established the committee for government. I think all 
these are positive things.
    I believe three things need to happen that will have a huge 
turnaround in Iraq, I believe: No. 1, find Saddam Hussein dead 
or alive; No. 2, reestablish a government, and that's going on 
right now, and Ambassador Bremer has his arms around that; and 
No. 3, reestablish an Iraqi Army that can pick up some of the 
security tasks, and that's beginning to happen now under Walt 
Slocombe. I think we bottomed out of this thing, and from this 
point on I think we'll see an increase.
    Now, you got the terrorists there, and we tighten the noose 
on them every day. In my estimation, part of the increased 
contacts with terrorists is because we're now taking the fight 
to them. We're seeking them out, and we're having more contacts 
with them, but I see that as good. The noose tightens every day 
on Saddam Hussein; the noose tightens on the guerrillas every 
day.
    Mr. Shays. If other Members don't get to my 11 points. I'll 
choose in my second round to ask about that.
    Let me just say I used 8 minutes, so I'll apply that same 
amount of timing to the Members that follow.
    Mrs. Maloney, you have the floor.
    Mrs. Maloney. Thank you, Mr. Chairman. I am very disturbed 
at the mounting number of American soldiers that are being 
killed during the peacetime, and I am very, very concerned 
about it. And if we continue at the rate that we're going, we 
will lose more of our people, our men and women, during the 
peacetime than we lost during the war, and it's very upsetting. 
They're doing very innocent things, buying a Coca Cola, and 
they're shot, walking down a street and they're shot. So I was 
very encouraged with reports this week that we were moving 
forward to employ Iraqi Army members in securing the safety 
sites around Iraq, therefore relieving our people.
    But could we do other things? Could we call upon our Arab 
allies to come in and help us in maintaining the peace? Could 
we call upon the United Nations to come in and help us maintain 
the peace? What can we do to really move forward to stabilize 
the economy and the government, to help the Iraqi people, but 
at the same time to really protect the American men and women 
who are there trying to help the Iraqi people?
    General Garner. I think you're absolutely correct. To get 
an international flavor of stability forces in there would be a 
positive thing. To reestablish elements of the Iraqi Army that 
could do things like border security and guard static locations 
would be a good thing, and that would allow our forces to--free 
up our forces to do more mounted and dismounted patrolling, 
which is somewhat safer than being static. It allows us to 
relieve some of the forces there.
    I think you're right, but also what I see evolving now is 
with the governmental committee that Ambassador Bremer has 
established now, you have some Iraqi voices now to talk to the 
people. And as a result you have fundamental Shiites, moderate 
Shiites, Sunnis, Christians, Kurds. So I think over time, you 
will see them taking more control, and they have great 
influence over the Iraqi people.
    Like I've said, I think we hit the bottom now. It's going 
to be a slow climb up, but I think the climb is going up.
    Mrs. Maloney. How long do you expect we'll need to stay in 
Iraq?
    General Garner. Oh, I don't know, ma'am. It's certainly 
going to take more than a year just to get the government 
process in place. I think once we get that in place, once 
there's a Constitution, once we have elections, and once we 
have an Iraqi Government and we have handed back the 
administration and the basic services of running Iraq back to 
an Iraqi Government, I think you'll see great change after 
that, positive change. How long that process takes is unknown 
right now.
    Mrs. Maloney. You have no sense of how long it will take to 
set up a government and a stable economy?
    General Garner. I think it can be done in a year to a year 
and a half.
    Mrs. Maloney. Year to year and a half.
    General Garner. Say you did it in a year, but once you've 
established it and set it up, there's a period of time there 
that you still have to remain with it to make sure it's stable, 
it's running right, and to give it the overhead cover that it 
needs to do what it needs to do. We're dealing with people who 
have been living in one of the worst regimes of the century for 
the last 35 years and have had really no democratic government 
for 1,000 years, so it takes--you're dealing with people that 
have been locked up in a black dark room for 35 years, and we 
just opened the door and let the light in. They're now trying 
to adjust their eyes and see. So it takes time to do that.
    Mrs. Maloney. We're receiving assistance now from the 
British Government in the south and the Kurds in the north, and 
there appears to be some resistance from our government to work 
with the United Nations. Do you think it would be helpful if 
the United Nations went there and worked with the Kurds and 
worked with the British Government in the south? Would that 
alleviate some of the pressure that we're feeling?
    General Garner. I'll give you my opinion. I don't think the 
Kurds care anything about having the U.N. in there. I think the 
Brits do, because the Brits have always been large supporters 
of the U.N. in this endeavor.
    My personal experience with the U.N. is they do subtasks 
pretty well; they don't to do major tasks very well. So I 
wouldn't turn the government over to them.
    Let me give you a thought here. If you went north and went 
into what we loosely call Kurdistan, three provinces we call 
Kurdistan, you'd want to vacation there. It's incredible. It's 
beautiful. The cities are marvelous, they're clean. The economy 
thrives. The people, most of the people, dress like Westerners. 
Women have equality there. You have women running for the 
government. Many of the schools are coeducational, and that's 
just happened in the last 12 years.
    When I walked out of northern Iraq in 1991, it looked like 
Basra. It was rubble. It was terrible. It was horrible. Now all 
we gave them was a guarantee that we wouldn't let Saddam 
Hussein back in there, and in 12 years they've turned that 
around without really any help from us and without any money 
from us. Think what can happen in the rest of Iraq now when you 
have us there, we're going to be there, we're spending money 
there. And they have the wealth of oil. The rest of Iraq will 
turn around in half that time, if not sooner. There's a great 
lesson learned, I think, as you look up north, and that they 
accomplished that with only freedom. That's all. No other help 
from us.
    Mrs. Maloney. That's wonderful to hear.
    What is the probability that guerilla warfare and social 
unrest would subside if we were able to provide stability and 
humanitarian assistance and services more quickly and directly? 
From what you're saying, there is a huge infrastructure 
challenge, and we're having a lot of problems on the 
humanitarian side. Is the guerilla warfare connected to that, 
or is that a totally separate----
    General Garner. I don't know whether it's connected or not. 
One thing that we all know is if the economy gets better, and 
if things get better, then those that are mildly disgruntled 
will quit being that way. The hard-core people aren't going to 
change. We're going to have to root them out and capture them 
or kill them.
    Mrs. Maloney. What happens if we have an election and they 
elect a restrictive government that is restrictive toward 
women, such as the Taliban, and restrictive in other ways 
toward the people?
    General Garner. I think you control that with the 
Constitution.
    Mrs. Maloney. With a Constitution.
    General Garner. You ensure rights for everyone in the 
Constitution, and you ensure in the Constitution that it 
represents all of Iraq, that it's a mosaic of Iraq.
    Mrs. Maloney. We've had great success with our 
Constitution. I wish the Iraqi people will have as strong a 
Constitution, too.
    My time is up. I thank you, General, very much for your 
time and testimony.
    General Garner. Thank you.
    Mr. Shays. I thank the gentlewoman.
    At this time recognize Mr. Duncan for 8 minutes.
    Mr. Duncan. I won't take 8 minutes.
    General, let me ask you this: First of all, let me say I 
know that General Garner and all the military have all done 
great jobs in Iraq based on what they were told to do. What my 
problem is how we justify spending $4 billion a month in Iraq 
and paying the back salaries of the military, paying Iraqi 
retirees, building or rebuilding 6,000 schools, giving free 
health care to Iraqi citizens, all of these things that we're 
doing, because while I have voted--I have always voted for the 
Defense Department, and I'm very much in favor of national 
defense. I'm not in favor of turning the Defense Department 
into the Department of International Social Work or the 
Department of Massive Foreign Aid, because most conservatives 
that I know have traditionally been against massive foreign 
aid, and this is massive foreign aid on an unprecedented scale 
that we're doing in Iraq right now.
    I know that the Congressional Budget Office estimated that 
a 3-month--they estimated before the war that a 3-month war and 
a 5-year occupation would cost us $272 billion, and that was 
when the estimated monthly costs were far less than the $4 
billion that we're apparently seeing now.
    But, General, let me ask you this: Did you happen to see 
the reports on the national news last night, or have you read 
the report of the CSIS team that just got back from Iraq that, 
according to the report, said that the window of opportunity in 
Iraq is greatly narrowing, and the country is about to slide 
into total chaos?
    General Garner. I briefly read that this morning in the 
Washington Post. Yes, sir.
    Mr. Duncan. Let me say this: You know, when you talk about 
the Iraqi citizens wanting us there, I think that in a country 
that poor, they would want anybody there that was willing to 
spend $4 billion a month. I mean, that is a great boon to their 
economy. And I know you--and I know everybody that's in this 
room is connected to the agency or department or company that 
wants us to be there.
    So I know that all these things I'm saying are very 
unpopular, and that makes me very uncomfortable, and I 
apologize because I don't mean to offend anybody, but I can 
tell you that we forget how much a billion is up here. We just 
talk about it like it's almost nothing. And $4 billion exceeds 
the yearly budget of most major cities in this country. I mean, 
it's just mind-boggling. You know, I'm sorry, but I just can't 
see it. I think that, you know, you've mentioned that Iraq has 
humongous oil wealth. I think what we should do is we should 
let them use that oil wealth to rebuild their own country.
    We have a lot of needs in this country. Yesterday in one of 
the subcommittees on which I serve, we passed a bill that was a 
$20 billion bill over a 5-year period to rebuild what everybody 
agrees is a really aging, deteriorating waste-water 
infrastructure in this country, and people do not realize how 
poor that waste-water infrastructure is in this country. And 
yet we were told that even though that money has been 
authorized, we won't be able to fund that, and that is $4 
billion a year, and we're not going to be able to fund it. And 
it's hard to justify to my people, because, you know, my people 
have the quaint notion that the American Congress should put 
the American people first.
    Thank you, Mr. Chairman.
    Mr. Shays. Do you want to comment on anything that----
    General Garner. Just one thing. I share your concern with 
the cost, Congressman. I really do. And one thing that I think 
gets a little confusing is when you talk about the burn rate on 
money of paying salaries, paying pensioners, and doing basic 
things, you have to remember that money is not appropriated 
money. Those were frozen assets. Those were Iraqi money. So 
what the coalition is doing now, they're paying salaries and 
they're doing an awful lot. There's close to $3 billion in 
frozen assets. I think what you'll see as soon as the oil 
fields get up and running, you'll see that the oil money will 
be going into an account that will be very visible and very 
audible, and that money will be spent also. So it's my hope, as 
yours, that those two things together will diminish the amount 
of money that we have to spend on Iraq.
    Mr. Duncan. Well, some of it is frozen money, but we did a 
supplemental appropriations bill for $80 billion on top of the 
biggest increase in defense spending ever, both of which I 
voted for, but there's an awful lot of appropriated money being 
spent and already having been spent.
    All right. Thank you very much.
    Mr. Shays. Thank the gentleman.
    I would recognize Mr. Lynch for 8 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    General, in mid-May when I was in Iraq, we had a chance to 
go into Baghdad and into Kirkuk, and at that time, talking to 
our people on the ground, our troops, they explained that in 
the early weeks of our military operation, there was, you know, 
pretty much chaos. They hadn't had--I think they said that they 
hadn't had the garbage picked up on the streets in Baghdad in 
something like 10 weeks, and that as the utilities were turned 
on and the garbage was picked up and the basic services started 
to come online, that the temper of the people themselves, it 
was moderated considerably.
    Now, in mid-May we had about 40 percent of the electricity 
on, we had 40 percent of sewage treatment and potable water. 
What was the percentage of utilities that we had on when you 
last were in Iraq?
    General Garner. As I left, the north and south had as good 
of water and better electricity than they ever had because they 
were getting electricity 24-hours-a-day. The problem was in 
Baghdad, because Baghdad never had the electrical grid capacity 
to generate enough electricity for the city, so that the 
electricity for Baghdad had to be ported or transported from 
the northern grids and the southern grids into Baghdad. But the 
problem was there were--the high voltage lines that did that 
were destroyed partly during the war and partly by terrorist or 
guerilla-type activities right after the war, and so it took a 
month, a little over a month actually, to reestablish those 
lines, and as they were reestablished, many of them would get 
destroyed or sabotaged after they did that.
    I think that's the problem today. But what the coalition 
has done, they're buying more capacity by bringing in huge 
generators, and they're putting more security on the high-
voltage lines.
    Now, even when you get all the grids up and running, 
there's not enough electrical capacity for all of Baghdad to 
have electricity 24/7, so electricity has to be shared. It will 
continue to be a shared activity until the Iraqis build larger 
grids or another grid.
    Mr. Lynch. Let's get into that, because that is one of the 
major problems there is, that country has never really been 
fully equipped to provide basic services to all its citizens. 
Now, in some of our contacts with your civil administrators in 
Baghdad, they were saying that these basic power stations were 
totally inadequate, they were a mishmash of not only different 
companies, but different nations that had come in there over 
the years and tried to provide some type of electrical power.
    Given the disastrous condition of basic utilities in Iraq, 
do you have any sense of what the cost would be to get them up 
to what they need for a decent standard of living in that 
country?
    General Garner. Congressman, I couldn't give you a number 
on that, but there will have to be significant restoration of 
the grids. And you put your finger on the problem right now is 
every power station, the equipment in there, in them, is from a 
different country. So there's no--there's no homogenous set of 
equipment there. And most of it is old, so it has to be either 
refurbished or restored. Then we have to have more than is 
there, and what the cost number is on that, I don't know.
    Mr. Lynch. And they need everything. They need basic roads, 
bridges, sewage treatment facilities, power stations. I just 
don't----
    General Garner. That's absolutely correct.
    Mr. Lynch. I see some of these estimates that are coming 
out about what it's going to cost the American taxpayer to help 
these people out and get them stood back up on their feet, as 
they say, and I just don't see it as honest and forthcoming as 
it should be. I think we're in for a long haul in Iraq if we're 
going to try to get these people up to a decent standard of 
living and try to do it ourselves.
    The other question I had was based on your own 
understanding of the oil supply and oil revenue, as Mr. Duncan 
had referred to earlier, is there any hope; is there any hope 
that with full capacity that Iraq would be able to handle a 
major portion of their infrastructure repairs through the oil 
revenue?
    General Garner. Oh, I believe there is. I think we need 
three things there. I think we need to bring the oil fields up 
to producing as much capacity as they can, given the equipment 
that they have. That's No. 1. No. 2, I think that we need to 
have a long-term budget for Iraq for what we're going to do, a 
plan for what will be accomplished over the next 10 years, and 
apply the revenues of the oil to that plan. And the third thing 
I think we need to do, and probably one of the most important 
things that can happen, is I think that we need to look at what 
is the debt that the people of Iraq are going to be faced with 
when all this is over, because if we don't--if we don't 
minimize that debt structure, we're looking at a Germany of 
1920, 1921.
    So I think it's very important to eliminate their debt. 
It's very important to get the oil fields to the maximum 
capacity we can get them to. It's very important to come out 
with a long-term economic plan and budget for restoration of 
Iraq and for the economy. I think that's going on right now. 
They are working hard on the oil fields. They are working on a 
long-term plan.
    The thing that can't be done in Iraq by the Coalition 
Provisional Authority is elimination of the debt. We have to 
take the lead probably here in this body that have you here to 
do something like that.
    Mr. Lynch. Thank you.
    One other issue. I've got a couple of other issues, but in 
talking to our people on the ground, military personnel, in 
Baghdad and Kirkuk, they were saying that 95 percent of their 
contacts are positive with the Iraqi population. They said, but 
the other 5 percent are trying to kill us. Now, based on my own 
experience going into your former headquarters in Baghdad, and 
just given the nature of the job that we've handed to our 
military personnel, there is close daily intimate contact with 
the Iraqi population every single day; driving into downtown 
Baghdad, throngs of people, thousands of people out on the 
street; going into your own headquarters, dozens and dozens of 
young Iraqi males looking for work or payment. It just seemed 
to me that the physical security of our personnel there was 
very much vulnerable under the protocols that we had there 
given the job we had to do. There's no way around it.
    And this goes right out to Mr. Bremer who for most of our 
meetings wore a flak jacket at the headquarters. Is there any 
way we can minimize these--I think the American people are not 
going to accept this daily slaughter of our young people, and 
there has to be some way we can do our job there and provide a 
greater level of security to our sons and daughters.
    General Garner. I agree with what you just said, but there 
is not going to be a quick solution to this. I think as the 
police force develops basic skills, which they never had before 
and they are developing now, and as Walt Slocum reactivates 
portions of the regular Army, and as we get some international 
involvement, and as we're taking daily more and more of this 
fight to the guerillas or terrorists, I think this will come 
under control, but it's going to be a long route to do that.
    Mr. Lynch. Look, I appreciate the job you have done. It's a 
tough job, and I appreciate your good work on behalf of this 
country.
    Mr. Shays. Thank you, Mr. Lynch.
    Mr. Tierney, you have the floor for 8 minutes.
    Mr. Tierney. General, first of all I think there are a lot 
of disagreements amongst policy issues in the Congress and 
probably in this country or whatever, but I think everybody 
owes you a debt of gratitude for the job that you undertook to 
do and did to the best of your ability, and I want to make sure 
that you know I appreciate it and folks in my district and I 
think throughout the country appreciate the sacrifice that you 
made in doing what you did.
    I have some serious policy issues, and they're not with 
you. I think the consequences are questionable, and I think 
dangerous policy, a preemptive first strike, unilateral strike 
by this country are now showing. We are in an entanglement now, 
alone primarily, that didn't have to be in, and I think it is 
unparalleled arrogance of the way we conducted our foreign 
affairs in this particular matter and the disregard for the 
opinions and the cooperation and the advice and assistance of 
our allies and friends have put us in this position right now. 
Where Mr. Duncan made the point that we are alone spending 
almost $4 billion a month, where I think, clearly, we ought to 
be in a situation at worse where we are sharing that burden 
significantly with others. And it just boggles the mind that we 
could have that kind of failed leadership at this particular 
point in time.
    We are witnessing what happens when you have intelligence 
and make a decision about preemptive unilateral attack that is 
incomplete or inaccurate or misinterpreted or misconstrued and 
we are bearing the fruits on that. So let me ask you, do you 
think that the number of troops that we have in Iraq right now, 
which estimates around 150,000. You might want to correct that 
if you have a more accurate number. Is that sufficient right 
now to fight a guerilla war to provide security and stability 
and to train others to step into that role?
    General Garner. I am going to give you two answers and one 
of them may be right. The first one, I mean, I am a former 
soldier, and I never have enough troops. I always want more 
troops.
    But the other answer is I looked at John Abazaid's remarks 
yesterday and he felt comfortable--what he quoted was 146,000--
that he had enough troops now to provide stability and to do 
the guerilla war. And John Abazaid, I know him very well, and 
to me he is the finest soldier in uniform today. If he thinks 
that's enough, then I would have to agree with that.
    Mr. Tierney. You also agree with his remarks that, in fact, 
we are engaged in a guerilla war?
    General Garner. I think we are. I think what's happened is 
they've had time now to coordinate and pull it together. I 
think it's a low-level guerilla war. It's not low-level to the 
troops, but yes, I think we are in a guerilla war now.
    Mr. Tierney. Tell me a little bit, if you would, about the 
condition that our men and women find themselves in in 
different areas of Iraq right now. What are their housing 
conditions? What is their food situation? What is their water 
situation?
    General Garner. It's really a function of where they are. 
If they're up north, the conditions are pretty good. If they're 
in Baghdad, in some places, their conditions are pretty good 
because they have a palace or a huge government building. The 
south is in horrible, horrible shape. I mean the south is 
representative of 35 years of brutality and neglect.
    Mr. Tierney. What percentage of our troops are in the 
south, sir?
    General Garner. I don't know the answer to that, sir. I 
don't know. But the problem right now, as you well know, is the 
heat is intense, the days are extremely long, and it's a 
dangerous situation. You know, if you take that triangle 
Falluja, Tikrit, Baghdad and you look at that and realize that 
was absolutely Baathist-centric, Sunni-centric, the bad side of 
the Sunnis. And there are over a million in there--I am talking 
about real-hard core Baathists and hard-core Sunni Baathists. 
Where we are right now, even if only 5 percent of those people 
are against us, that's a big number, and so there's a lot to 
contend with there. Until we tighten the noose on them, until 
we eliminate that and show them there's no chance for them, 
that's going to continue. But I think the military and the 
civilian authorities are doing it now, but it's a long road.
    Mr. Tierney. Explain to me what we're doing--I mean, 
there's a large young population there, young male population 
there. What are we doing to try to keep those folks occupied, 
and how do we compensate them in some meaningful way so 
whatever currency they get in terms of compensation is actually 
a value to them?
    General Garner. The basic approach is to try to restore the 
economy and try to create jobs. And much of that is being done 
through as--I'm dated now, but much of that was being done 
through the Ministry for Trade and was being overseen by 
Ambassador Robin Rafel, and she had a very comprehensive plan 
to do it, but it's slow. The creation of jobs is extremely 
important. As you create jobs, you put money in peoples' 
pockets. They're less interested to do mischievous things.
    Mr. Tierney. What's the relationship with NGO's and others 
that might want to provide some humanitarian relief? What's the 
status of that right now? And what do you foresee in the near 
future?
    General Garner. I don't know what the status of it is right 
now. The thing about NGO's is essentially, the environment 
needs to be fairly permissive for them to work, and if it's not 
permissive, then they go in harm's way. The NGO's do a 
marvelous job, and they're great people, they're wonderful 
people, but I have to tell you when they come to you, they 
complain all the time about how terrible things are and how 
they don't get supported, because that's the way they get 
money. They can't get money without griping. So what we need to 
do is find another way to fund the NGO's.
    Mr. Tierney. I was going to say they're saying nice things 
about you. Thank you for your time.
    Mr. Shays. Thank the gentleman, Mr. Ruppersberger.
    Mr. Ruppersberger. You have done a tremendous job. Thank 
you for your service to the United States of America.
    I agree with most of what you have said, and I really 
appreciate your candid responses to the questions, and we don't 
always get that in committees.
    The plan is important. There's so much emphasis right now 
that's being put on weapons of mass destruction, and we should 
because of the credibility issue facing the administration and 
also to learn from our mistakes that we can do better. But it 
seems to me that the issue--the highest priority is what's 
happening now in Iraq and the fact that on a daily basis our 
military are being knocked off. It's a guerilla warfare, and it 
was probably planned before we started the war, and we are in 
that situation.
    In your list, No. 1 is establish security and with a plan. 
And I think the world and the American public want to 
understand, really, what is going on. And if we have a plan, if 
we articulate exactly that we are having a problem, we need to 
secure the area before we can get to the next level, we need to 
move forward. And my question is, is there a plan articulated 
by the administration or Defense Department on what we need to 
do first to obtain security, so we can get to the issue of the 
humanitarian issues?
    General Garner. Congressman, thank you for your remarks. I 
can't tell you what the plan is right now, but I can assure 
that there's a plan. And I can assure you, in General 
McKiernan, you have probably one of the most skilled soldiers 
that we've had and in General Abazaid together, the two of them 
together, I can assure you, have a very comprehensive plan to 
do what you just said.
    Mr. Ruppersberger. The plan has to come from the top. And 
there are issues about the resources, there are issues about 
what--there are issues, do we form a coalition with other 
countries not only to help with security, but the cost factor, 
until we can get the oil fields moving?
    General Garner. The more international flavor that we can 
put on this, the better off we'll be. We need to maintain the 
control of it. On weapons of mass destruction, I agree with 
you, we have a credibility issue there, but let me say this, 
that he had weapons of mass destruction. If I could take you 
right now with me to the marketplace in Basra, and we bring 
Iraqis, 100 of them, and you say ``do you think he had weapons 
of mass destruction?'' Every one of them would say, 
``certainly. I lost an aunt to that in 1984. I lost my uncle in 
1985. I lost my brothers in 1986. We could go up north to the 
Kurds and get the same response. In 1988, my mother and father 
were gassed.'' He used it against Iranians. He used it against 
the Shiites, he used it against the Kurds, then we gave him 12 
years to learn how to hide it. And it's a big country and 
weapons of mass destruction are little things. So he's had the 
chance to hide it. I think we'll find those.
    Mr. Ruppersberger. It's a matter of priority. And in my 
opinion, the priority is what we are going to do to Iraq with 
American soldiers being shot?
    General Garner. You're colored by your experiences, and so 
my problem with all this is if I could have had each of you 
stand with me in the killing fields in al-Hillah, which is next 
to the ancient city of Babylon, and have you watch them unearth 
the bodies of the thousands--and I think the number will 
approach a million that he killed in 1991 and 1992. I mean 
absolute genocide. And the horrors of that and the emotions of 
the people. And as you look at the bodies being exhumed and 
laid out on the ground, many of them not even 3 feet long--
children--and you look at that and we're dealing with someone 
on the level of Hitler in Germany or Pol Pot in Cambodia. And 
if you looked at that, that to me alone is enough to take this 
dictator out. And all the people will tell you thank you for 
doing this. ``Thank you for eliminating Saddam Hussein. You're 
12 years late.''
    Mr. Ruppersberger. You know, I don't disagree with you on 
that issue, the issue of whether or not we're going to war is 
over with, we are there and we have to deal with the reality of 
today. If your administration wants to use a good argument, 
they were there in Desert Storm. So let's move on and deal with 
what's happening today. The focus is clearly going to be on 
we're there or we're there not. But the issue is American 
soldiers being knocked out everyday, and second, bringing this 
country where it needs to be, which you said is going to take a 
long time. A lot of times we raise expectations, maybe for 
political reasons and that is one of the worst things you can 
do because it's going to take a long time.
    Let me get to another other issue, the issue of oil. Is 
there an aggressive program? And who's overseeing the program 
to start getting the oil moving so that the resources can be 
used to pay for what we're paying for right now?
    General Garner. I can tell you that. Ambassador Bremer 
spends a lot of time.
    Mr. Ruppersberger. Do you know where we are at this point?
    General Garner. I don't know where we are at this point, 
but I can tell you there's an aggressive program to make the 
oil successful in user revenues for reconstruction for the 
Iraqi people.
    Mr. Ruppersberger. Do you feel, and I know the question was 
asked before, do you feel it would be wise, from a diplomatic 
point of view, to reach out to the U.N. or other countries to 
come in and put together a plan, not a haphazard situation 
where we have all different types of equipment, but a world 
plan as we did in Desert Storm to come in and take care of this 
situation? First secure Iraq. It's not secure right now, and 
second, start the humanitarian issues, the education, the 
infrastructure building, all of those issues?
    General Garner. Basically, yes, I agree with that. The more 
international flavor you can have, there are some things that 
the U.N. does that are extremely good. We can use them, but I 
wouldn't turn the operation over to the U.N.
    Mr. Ruppersberger. Everybody might want to because of the 
oil.
    General Garner. Well, the oil is something we have to be 
very careful with. And we have to be absolutely set up in a way 
where it's very audible and that money is very visible, it's 
audible and it goes strictly to the Iraqi people.
    Mr. Ruppersberger. And use our expertise and other 
expertise to set up a banking system, a system where people 
will be able to use that.
    Thank you for your testimony.
    Mr. Shays. The Chair recognizes Mr. Bell for 8 minutes.
    Mr. Bell. Thank you very much, Mr. Chairman.
    And General, thank you very much for being here to testify. 
And I apologize for missing your earlier testimony. If my 
questions are redundant, I apologize for that also, but it 
would merely make me like 99 percent of the other Members of 
Congress.
    But first question I have for you has to do with your 
statement regarding standing in the killing fields, and that 
being after seeing what you did when you were in Iraq, that's 
reason enough. And you know there are a lot of different 
opinions on our side of the aisle as to the military action in 
Iraq. I happen to support the military action, but I did so on 
the basis that we were told that Saddam Hussein was 
manufacturing weapons of mass destruction and sponsoring 
terroristic activity. And that's what this administration chose 
to tell the American people.
    And I'm curious as to your earlier statement. And if you 
don't think that being there creates some credibility and trust 
problems down the road if the reasons that were offered--
because regime change was talked about, but it was not given as 
the reason for why we were moving forward. I think there was an 
agreement throughout the international community that Saddam 
Hussein was an awful leader and an evil leader, but there are 
other evil leaders in other parts of the world that we are not 
attacking in the same manner. And I am curious as to what your 
feelings are now on that particular subject, whether we will 
have a trust and credibility problem going forward if the 
reasons that were offered for the military action do not prove 
to be true?
    General Garner. I believe we will have a trust and 
credibility problem if we don't find the evidence of weapons of 
mass destruction. And we will have that problem from people who 
want to make it a problem. But again, I feel sure he had them. 
I feel we are going to find them, eventually. I feel very 
strongly that we shouldn't allow genocide, and there's much 
genocide there. But someone put their finger on it that we are 
where we are, and this Nation can do anything that it wants to. 
And I think what we all ought to do is we ought to galvanize, 
and we ought to make this mission successful because the 
potential of that, not only in our reputation, but the future 
of the Middle East and the tensions in the Middle East will be 
mitigated, I believe, if we're successful here. And I think it 
ought to be one team, one fight, and let's get the job done.
    Mr. Bell. You assure us that you think there's a plan, and 
I realize all you can speak to is your own experience, but some 
of us have been a little bit shocked. And I'm very glad you're 
here because you can answer some of what has been suggested 
previously and at other hearings I have attended what. Has been 
suggested is that the administration, that the Defense 
Department, that our military leaders believed that once Saddam 
Hussein was overthrown, that the American troops would be 
welcome with open arms, that their presence in Iraq would be 
celebrated, and there would be a smooth transition from that 
point forward. Was that your belief going in? Is that what your 
expectation was? Was that the plan?
    General Garner. That wasn't my belief, and I don't think it 
was the belief of the military because the military knew there 
was an extremely hard-core element that was going to continue 
to be there after the war was over. I don't think that any of 
us could stand up here in front of you and tell you we 
predicted what is going on today, but we certainly didn't 
predict a cakewalk, and we certainly knew that there would be 
elements of terrorism. We certainly knew that the 
infrastructure would be a problem. The looting, I expected 
there to be looting. I didn't expect though the consequences of 
looting that we faced. When we went up north in 1991, there was 
looting up there, but they simply stole everything, and they 
took out the windows and stuff like that, but they didn't 
destroy the buildings. What happened this time, the buildings 
were destroyed. They pulled out the wire, they pulled out the 
plumbing and set them on fire. I think there were certain 
things we expected, but the consequences and the depth of it 
was far greater than we had anticipated.
    And it's like anything you go into, no plan turns out 
exactly the way you planned it. But the reason you plan is to 
keep you from starting with a blank sheet of paper. And I 
think, essentially, the military did an excellent plan. I think 
from the time we had, we did a decent plan.
    And so like I said, we are where we are. We just need to 
stay the course and get the job done.
    Mr. Bell. I guess that's why you have to have alternative 
plans. You referred to this hard-core element. And we read 
everyday about our troops continuing to be shot at, killings 
taking place on an almost daily basis, and I'm curious as to 
what the plan was to deal with that kind of activity if it were 
to occur?
    General Garner. Sir, I don't know what the plan is today. I 
can't answer that.
    Mr. Bell. Was there a plan in place?
    General Garner. Yes, sir. There was a plan in place. In 
fact, there were daily sweeps in operations to begin ferreting 
out these people.
    Mr. Bell. We move forward and look at where we are today 
and the 11 essential tasks that have been put forth by you 
beforehand, as far as those tasks are concerned, we go down the 
list establishing security in Baghdad, would you say that's 
been accomplished?
    General Garner. Yes, I think we have security, but it's not 
to the degree that you want it. I mean it certainly falls far 
short of where you want it, but it doesn't mean we are not 
doing those things necessary to provide security. People are 
able to get out and work in Baghdad, but certainly the security 
isn't anywhere we want in Baghdad or any other places.
    Mr. Bell. I believe we are paying Civil Service salaries?
    General Garner. Yes.
    Mr. Bell. The police force--there has been an effort to 
train police?
    General Garner. I was told they just reactivated the police 
academy.
    Mr. Bell. The government ministries are not functioning are 
they?
    General Garner. I believe they are. The ability to pay 
people says that the Central Bank is functioning. The Ministry 
of Trade is functioning. The schools are open. They are not 
functioning to the degree we want them to, but they are 
working.
    Mr. Bell. Restoring basic services in Baghdad to prewar 
levels, we're certainly not there?
    General Garner. To my knowledge, we are not.
    Mr. Bell. Where does the fuel crisis come in?
    General Garner. I don't know where that is now.
    Mr. Bell. Are we purchasing crops?
    General Garner. Yes.
    Mr. Bell. The food distribution system gaps.
    General Garner. I don't know where we are on that. The 
problem since the Gulf war is that they operated on a huge 
distribution system. They had over 40,000 nodes in it. And 
while there was no food crisis, what we needed to do was 
reestablish that system and see what nodes were missing. We 
would have to replace those, and we want to make sure that the 
food distribution system was up and running, because we knew 
within a matter of months, we would have to begin distributing 
food.
    Mr. Bell. My time has expired, General, but would it be 
fair to wrap up by saying we still continue to face huge 
challenges given the essential tasks that you had put forth?
    General Garner. Oh, yes, sir. There are huge challenges. 
Absolutely, I agree with that.
    Mr. Bell. Thank you very much for being here.
    Mr. Shays. Thank you.
    General Garner, I am going to let you leave in just a 
second. I would just like to ask you a few more questions.
    And let me say to the second panel. I think some of the 
second panel have something to do with the Heritage Foundation. 
We're willing to switch the second panel and have it go third. 
Talk to my staff. We have votes that will probably prevent us 
from getting back until maybe 10 of 12 or so. I'll let you work 
that out with the staff director and try to be flexible in 
that.
    General Garner, the Center for Strategic and International 
Studies had the opportunity to go to Iraq June 26th to July 
27th. They had five members, and they came in and made this 
point. They basically said, we saw significant progress 
everywhere we went, but the enormity of this undertaking cannot 
be overstated. There are huge challenges ahead. We hope the 
recommendations in the attached report will assist in shaping a 
successful reconstruction in Iraq.
    And then they had seven major areas needing immediate 
attention. One, the coalition must establish public safety in 
all parts of the country, which is really your point 1 in your 
11 issues. And then they said Iraq ownership, the rebuilding 
process, must be expanded at national, provincial and local 
levels. And that's really points 9 and 10 of yours. No. 3, idle 
hands must be put to work and basic economic social services 
provided immediately to avoid exasperating political and 
security problems. That was two, three and four of your 
recommendations.
    Then they had decentralization is essential. That is 
something different. They had the coalition must facilitate a 
profound change in the Iraqi national frame of mind from 
centralized authority to significant freedoms, from suspicion 
to trust, from skepticism to hope.
    Six, the United States needs to quickly immobilize a new 
reconstruction coalition that is significantly broader than the 
coalition that successfully waged the war.
    And then seven, money must be significantly more 
forthcoming and flexible, which is point seven.
    What they did not include was in yours, restore basic 
service in Baghdad to prewar levels or better. That sounds like 
in a sense it's been done. Prevent a fuel crisis, which they 
didn't include, which was yours. Food distribution gaps, and 
prevent disease and cholera outbreaks, which we will be 
interested to hear from the NGO's, but they didn't include 
that.
    I guess my question to you is, you are an invaluable 
witness because you've been there, and you were able to talk 
about people you spoke with. One of the points I want to ask 
you is, you were very accessible, people interacted with you 
and you interacted with them, do you have a sense that the same 
interaction is going on by Mr. Bremer and his team?
    General Garner. Well, the 3 or 4 weeks that I was there 
with Ambassador Bremer and his team, he was very accessible, 
and I have seen no evidence that he has changed that. I see 
television clips of Jerry Bremer all the time, all over Iraq. 
Jerry Bremer is an extremely talented diplomat, so he's going 
to be accessible.
    Mr. Shays. I agree--he happens to have been a former 
constituent of mine and happens to have been a former 
Ambassador on terrorism. But there's an accusation that his 
team is in the palaces and the public doesn't, interact with 
the palaces, that, kind of, almost makes a statement. Is that 
something that is advisable, being in the palaces?
    General Garner. No. I think you have to get out. I don't 
think that statement is correct. I think the people get out 
quite a bit. I have not been there for 6 weeks. But I would be 
surprised if that team has sequestered itself inside the 
palace.
    Mr. Shays. The Baath Party, the Republican Guard, basically 
a decision. If you were part of either, you don't have a future 
in Iraq. A number of people have criticized and some of the 
NGO's are going to make this point that there were lower-tier 
people in the Baath Party, lower-tier people in the Republican 
Guard, people who really had to participate in Saddam's Iraq, 
and, therefore, were part of them, but the sense that 
redemption is a valuable thing. Why turn all of them against 
you, why not co-op some of them. Your opinion about that?
    General Garner. Well, I agree with most of what you said. 
There is a line, you don't want to end the day with more 
enemies than you started with that morning. But I think what is 
missing in this, you have to look at where those elements of 
the Baath Party were. If they were in the education system, 
where you couldn't teach in Iraq unless you were Baathist. So 
you find the bulk of the people in the education system are not 
hard-core Baathist at all. If you go over to the security 
system, military system, they are all hard-core Baathist. So 
what is left in that policy, as I remember it, is there is the 
chance--there is the opportunity for, even if you were taken 
out of your job as part of that policy, there's a chance to 
come back in and plead your case and get put back in that job, 
based on your personal background.
    Mr. Shays. I have basically 2\1/2\ minutes until the 
machine technically closes, we are going to insert this into 
the record, and I'm just going to say as someone who has 
complained to everyone I can, everyone I can, the Defense 
Department invited five people in to spend 7 days to do what 
the work of Congress should be. And I know that's not your 
responsibility, but I just want to put it on the record.
    I'm really at my wit's end to know what we have to do to 
get this Defense Department to allow Members to see the things 
that you see. I don't just want to hear it from you. I don't 
want to hear it from the press. I want to see it, I want to 
feel it, I want to taste it and I think other Members should be 
allowed to do that, and I don't mean taking us from one place 
in Baghdad to another. If you're saying the northern part is 
safe, then there is absolutely no excuse for Members of 
Congress not being part of that.
    You have been a wonderful witness. I am delighted you were 
here and grateful you were here.
    We are going to adjourn, and staff will talk to the next 
two panels. I am running out so, please don't think I am being 
rude. Thank you for being here. Do you have any closing 
comment.
    General Garner. Thank you, sir. It was an honor to serve.
    Mr. Shays. It's an honor to have you serve our country.
    Thank you.
    [Recess.]
    Mr. Shays. I would like to call this hearing to order and 
apologize to panels two and three for the extraordinarily long 
wait. While there is a real battle in the Middle East, there is 
a skirmish in the hall of the House.
    Our second panel is Dr. Susan Westin, Managing Director, 
International Affairs and Trade, General Accounting Office; Dr. 
Joseph Collins, Deputy Assistant Secretary of Defense for 
Stability Operations, Department of Defense; Mr. Richard 
Greene, Principal Deputy Assistant, Bureau of Population 
Refugee and Migration, Department of State; Mr. James Kunder, 
Deputy Assistant Administrator, Bureau for Asia and the Near 
East, U.S. Agency for International Development [USAID].
    I would request--do we have all--if you would stand, I'll 
administer the oath, and then we can take testimony.
    [Witnesses sworn.]
    Mr. Shays. For the record the witnesses have responded in 
the affirmative.
    Your testimony is very important. I think this hearing is 
very important, and I am sorry that you have had to wait. And 
it is likely, if there are more votes, I am going to stay here 
so we can continue. I know everyone has other things they have 
to do today.
    With that, Dr. Westin nice to have you here. Thank you for 
being here.
    What we are going to do you is, you have 5 minutes. You can 
roll over another five, but please don't get to 10.

STATEMENTS OF SUSAN S. WESTIN, MANAGING DIRECTOR, INTERNATIONAL 
    AFFAIRS AND TRADE, GENERAL ACCOUNTING OFFICE; JOSEPH J. 
   COLLINS, DEPUTY ASSISTANT SECRETARY OF DEFENSE, STABILITY 
    OPERATIONS; RICHARD GREENE, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF STATE FOR POPULATION, REFUGEES, AND MIGRATION; AND 
 JAMES KUNDER, DEPUTY ASSISTANT ADMINISTRATOR FOR ASIA AND THE 
      NEAR EAST, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Dr. Westin. Thank you, Mr. Chairman. I ask that my entire 
statement be put in the record, which I will summarize.
    I am pleased to be here today to discuss GAO's observations 
on assistance efforts that followed military conflicts in 
Bosnia, Kosovo and Afghanistan.
    First, I have a few general observations about assistance 
in post-conflict situations. Second, I will discuss some 
essential elements for carrying out assistance effectively. My 
third topic of discussion is challenges to providing 
assistance. I hope these remarks will prove useful context in 
the subcommittee's oversight of post-conflict assistance to 
Iraq.
    Let me briefly discuss two general observations about post-
conflict assistance in Bosnia, Kosovo, and Afghanistan. We 
learned that humanitarian assistance must be part of a broader, 
long-term effort that includes military, economic, governance, 
and democracy building measures. We also learned that even when 
the fighting has stopped, local tensions and conflicts continue 
and must be recognized. Local parties have competing interests 
in and differing degrees of support for the peace process. For 
example, in Afghanistan, war lords control much of the country 
and foster an illegitimate economy fueled by the smuggling of 
arms, drugs and other goods. Second, our work has consistently 
shown that effective reconstruction assistance cannot be 
provided without three essential elements: a secure 
environment, a strategic vision for the overall effort, and 
strong leadership. I will briefly discuss each of these.
    Examples abound for the need for a secure environment to 
effectively provide humanitarian assistance. In Bosnia and 
Kosovo, humanitarian and other civilian workers were generally 
able to perform their tasks because they were supported by 
large NATO-led forces.
    In contrast, throughout the post-conflict period in 
Afghanistan, humanitarian assistance workers have been at risk, 
due to ongoing security problems caused by domestic terrorism, 
longstanding rivalries among war lords, and the national 
government's lack of control over the majority of the country.
    In our years of work in post-conflict situations, we 
learned that a strategic vision is an essential element for 
providing assistance effectively. In Bosnia, the Dayton 
Agreement provided a framework for assistance efforts, but 
lacked an overall vision for the operation. NATO, supported by 
the President of the United States, subsequently provided an 
overall vision for the mission by first extending the 
timeframe, and then tying the withdrawal of the NATO-led forces 
to benchmarks, such as establishing functional national 
institutions and implementing democratic reforms.
    Our work also highlights the need for strong leadership in 
post-conflict assistance. In Bosnia, for example, the 
international community created the Office of the High 
Representative to assist the parties in implementing the Dayton 
Agreement and to coordinate international assistance efforts. 
The international community later strengthened the High 
Representative's authority which allowed him to remove Bosnian 
officials who were hindering progress.
    Let me turn to four key challenges in providing assistance. 
No. 1, ensuring sustained political and financial commitment 
for post-conflict assistance efforts is a key challenge because 
these efforts take longer, are more complicated, and are more 
expensive than originally envisioned. In Bosnia, stabilization 
efforts continue after 8 years, and there is no end date for 
withdrawing international troops, despite the initial intent to 
withdraw them in 1 year. In Kosovo, after 4 years, there is 
still no agreement on the final status of the territory. This 
makes it impossible to establish a timeframe for drawing down 
troops. Moreover, providing this assistance costs more than 
anticipated. Total U.S. military, civilian, humanitarian and 
reconstruction assistance in Bosnia and Kosovo from 1996 
through 2002 was almost $20 billion, a figure that 
significantly exceeded initial expectations.
    A second challenge to effectively implementing assistance 
efforts is ensuring sufficient personnel to carry out 
operations and follow through on pledged funds. To give one 
example, in Afghanistan, inadequate and untimely donor support 
disrupted the World Food Program food assistance efforts. WFP's 
deliveries were about 33 percent below requirements for the 
April 2002 through January 2003 period due to lack of donor 
support.
    No. 3, coordinating and directing assistance activities 
between multiple international donors and military components 
has been a challenge. In Afghanistan, coordination of 
international assistance, in general, was weak in 2002 
primarily because the bilateral, multilateral, and 
nongovernmental assistance agencies prepared individual 
reconstruction strategies, had their own mandate and funding 
sources, and pursued development efforts in Afghanistan 
independently.
    A fourth challenge is ensuring that local political leaders 
and influential groups support and participate in assistance 
activities. In Bosnia, the Bosnian-Serb leaders and their 
political leaders opposed the Dayton Peace Agreement and 
blocked assistance efforts at every turn. For example, they 
obstructed efforts to combat crime and corruption, thus 
solidifying hard-line opposition and extremist views.
    In conclusion, Mr. Chairman, GAO will apply these important 
lessons as we conduct reviews of the reconstruction efforts in 
Iraq.
    Let me briefly summarize our ongoing work. First, we are 
monitoring the efforts of all U.S. agencies to provide 
humanitarian, economic development, security and reconstruction 
assistance to Iraq. This work responds to requests from the 
House International Relations and Senate Foreign Relations 
Committees.
    Second, in a response to a request from the House Financial 
Services Committee, we are assessing U.S. efforts to locate and 
return the financial assets of the former regime to the Iraqi 
people.
    Third, we are assessing the adequacy of the process used to 
award the initial USAID and DOD reconstruction contracts in 
Iraq.
    And finally, we will begin work to account for the total 
and projected cost of the war and the post-war reconstruction 
efforts. We hope the GAO's work will provide Congress with 
critical information for effective oversight.
    Mr. Chairman, this concludes my prepared statement. I will 
be happy to respond to questions.
    Mr. Shays. Thank you, Dr. Westin.
    [The prepared statement of Dr. Westin follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.014
    
    [GRAPHIC] [TIFF OMITTED] T1134.015
    
    [GRAPHIC] [TIFF OMITTED] T1134.016
    
    [GRAPHIC] [TIFF OMITTED] T1134.017
    
    [GRAPHIC] [TIFF OMITTED] T1134.018
    
    [GRAPHIC] [TIFF OMITTED] T1134.019
    
    [GRAPHIC] [TIFF OMITTED] T1134.020
    
    [GRAPHIC] [TIFF OMITTED] T1134.021
    
    [GRAPHIC] [TIFF OMITTED] T1134.022
    
    [GRAPHIC] [TIFF OMITTED] T1134.023
    
    [GRAPHIC] [TIFF OMITTED] T1134.024
    
    [GRAPHIC] [TIFF OMITTED] T1134.025
    
    [GRAPHIC] [TIFF OMITTED] T1134.026
    
    [GRAPHIC] [TIFF OMITTED] T1134.027
    
    [GRAPHIC] [TIFF OMITTED] T1134.028
    
    [GRAPHIC] [TIFF OMITTED] T1134.029
    
    Mr. Shays. Dr. Collins, thank you.
    Dr. Collins. Mr. Chairman and members of the committee, I 
am honored to be here, and I thank you and all of the members 
of the committee for their support of the Armed Forces in the 
field and our ongoing efforts for relief and reconstruction.
    I have a longer statement which, I will presume, will be 
included in the record, sir, and so I will just summarize a few 
of the high points.
    U.S. Government planning for relief and reconstruction in 
Iraq was conducted on an interagency basis and was well-
coordinated with CENTCOM. Indeed, between Afghanistan and Iraq, 
I have spent enough time with the two gentlemen to my left to 
be declared a blood relative of either one of them.
    As a result of careful planning in the scale and 
professionalism of our combat forces, the widely predicted 
humanitarian crisis in Iraq was averted. There's been no food 
crisis, no widespread outbreaks of disease, no systematic human 
rights abuses, no significant ethnic reprisals, no large-scale 
population displacements, and no destabilization of states in 
the region, all of which were problems for us that we 
considered in our planning.
    America owes much to the excellent work of its Armed Forces 
but also to the interagency humanitarian planners and to Jay 
Garner and his team and his successor, Ambassador Bremer and 
his team. The Coalition Provisional Authority is working 
closely together with the United Nations under Mr. Sergio de 
Mello, as well as a number of NGO partners and friends.
    I recently found out that the U.N. and the CPA have both 
exchanged liaison officers, and the work of the U.N. in a 
number of areas, particularly in the distribution of food, has 
been both critical and irreplaceable. In the U.S. Government 
effort, Ambassador Bremer has maintained the positive momentum 
on General Garner's near-term tasks that were talked about 
previously, and he had made great progress on mid to long-term 
goals. These are his priorities, and I will speak to a few of 
them.
    The first priority for our forces and for the CPA is 
security. We must eliminate the resistance and safeguard our 
people, our most precious asset. Daily progress is evident on a 
number of fronts. Reformation and reconstitution of the Iraqi 
Police Force. We now have 34,000 Iraqi police that have been 
rehired, many more thousands in training. Training of a few 
thousand additional facility protection forces, establishment 
of an international stabilization force, which will include 
participation of about two dozen nations, and the creation of a 
new Iraqi Army of 40,000, 12,000 of whom should be trained by 
the end of the first year.
    A second critical priority is rapid improvement in the 
quality of life of the Iraqi people through the restoration of 
basic services. Much there, of course, remains to be done, 
especially in regards to the Iraqi electrical system. I am 
pleased to report that the CPA now estimates that they will 
achieve, by the end of July or the first week in August, the 
prewar electrical production level. This is still a problem for 
the future. The demand is about 6,000 megawatts, and the supply 
before the war was only 4,000. So a lot needs to be done.
    A third critical priority is to maximize international 
contributions. United States and international organizations 
have raised over $2.3 billion of international contribution. 
And Ambassador Bremer has made good use of the vested and 
seized assets. Added to this, of course, will be the revenue 
from the production of oil, which again, will be a few billion 
dollars in the remainder of this year.
    Economic development is a fourth priority and CPA is 
enacting a number of promising initiatives. They recently 
approved the national budget. They have a planned currency 
reform, and there is a new major infrastructure investment 
project, which is also an attempt not only to jump start 
infrastructure improvement, but also to provide employment for 
unemployed Iraqis.
    Finally, Iraqi self-government is the ultimate goal and 
progress has been made there at the local, ministerial and 
national levels. The recent establishment of the Governing 
Council is a significant milestone. Constitutional development 
will follow. National elections will follow that. And that, of 
course, will bring us close to our ultimate goal in the 
country.
    In conclusion, careful interagency planning and 
cooperation, combined with the skill and professionalism of our 
combat forces, helped avert a humanitarian crisis and laid the 
groundwork for General Garner to quickly establish positive 
momentum. Ambassador Bremer has built on this momentum and has 
expanded the coalition's reconstruction efforts. In the prewar 
combat and stabilization phases of this operation, interagency 
and international cooperation in Washington and in the field, I 
believe, has been excellent.
    Thank you, sir.
    Mr. Shays. Thank you, Dr. Collins.
    [The prepared statement of Dr. Collins follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.030
    
    [GRAPHIC] [TIFF OMITTED] T1134.031
    
    [GRAPHIC] [TIFF OMITTED] T1134.032
    
    [GRAPHIC] [TIFF OMITTED] T1134.033
    
    Mr. Shays. Mr. Greene.
    Mr. Greene. Mr. Chairman, I appreciate the chance to speak 
with you again today regarding the current challenges in the 
relief arena in Iraq. I just want to say 1 week after the last 
time I spoke before this committee, I was on the West Bank 
working on some refugee issues, and I had met with some of the 
same people that you had met with, and they really appreciate 
the time and the way you went about your meetings there. So 
thank you, sir.
    We remain in the early stages of Iraq's recovery and there 
are two major relief and initial reconstruction challenges 
facing the CPA and the U.N. system that fall within my area of 
responsibility, which is preventing further population 
displacements and managing refugee returns.
    Certain groups in Iraq are vulnerable, including 
Palestinians, some Iranians and displaced Arabs, and they are 
increasingly intimidated and often forced to leave land and 
homes given to them under the former Iraqi regime. About 4,000 
Palestinians are currently taking shelter in very difficult 
conditions in a stadium in Baghdad. In northern Iraq, the 
reintegration of 800,000 internally displaced Iraqis from 
previous conflicts constitutes an additional long-term 
challenge to the stability of Iraq. The issues to be faced 
there include property dispute resolution, compensation and 
assistance to those displaced by the returning indigenous 
populations. Tensions have already flared in some communities 
between returning Kurds and Arab settlers.
    The CPA and others have said the conditions do not yet 
exist for large-scale organized refugee returns. And until 
security, legal protection and infrastructure problems are 
addressed, the system will not be prepared to handle massive 
refugee repatriation. And we estimate there's about 500,000 
refugees or close-to-refugee status who want to return quickly. 
We are working closely with the CPA and various U.N. agencies 
to create the conditions that will ultimately ensure well-
managed, sustainable returns. And in the expected economic 
transformation of Iraq, it is essential to ensure that the most 
vulnerable, including returning refugees and internally 
displaced people, especially women and children, have access to 
the resources they need.
    Regarding lessons identified, there are about four key 
lessons I want to point out--or three key lessons that I, want 
to point out here regarding my responsibilities.
    First is the importance of early funding and contingency 
planning. For Iraq, the key agencies, as Dr. Collins said, 
within the U.S. Government, carried out quiet contingency 
planning. As a result, by February, our plans were complete, 
and we were able to present publicly our humanitarian 
preparations to minimize suffering in Iraq in the event of 
conflict. A major part of these preparations were stockpiles of 
food and assistance for up to a million people by AID.
    Second, the importance of engaging the multilateral system, 
we engaged early and often with senior levels of the United 
Nations to have them prepare to carry out their operations.
    Third was fostering military planning for humanitarian 
issues and civil military cooperation. Failure to conduct such 
planning caused some confusion and delays in the Balkans. One 
of the lessons of the Kosovo operation was recognition of the 
need to minimize internal and external displacements of people. 
We applied these lessons in Afghanistan taking steps to feed 
the Afghan people while the allied coalition destroyed the 
regime that oppressed them. The result of U.S. policy was that 
very few people left Afghanistan and 2 million people were able 
to return shortly. In the case of Iraq, the international 
community anticipated the exodus of over a million refugees and 
internally displaced persons. In fact, thanks to the rapid 
conclusion of hostilities and our humanitarian preparations, 
and some of the preplanning we talked about, there was very 
little in terms of population displacements.
    In terms of the challenges that we face now in my areas of 
responsibility, clearly the first challenge is security. 
Security is the fundamental precondition for recovery from 
conflict. Refugees and IDP returns will not be sustained unless 
security improves.
    Humanitarian action, reconstruction, society-building in 
general are heavily dependent on the restoration of law and 
order and public safety. Clearly, as Chief Administrator Bremer 
says, the first job of any government is to provide security 
and maintain law and order, and that's the most important 
challenge in Iraq now.
    Second, property rights disputes need to be channeled and 
settled. We remain concerned that pent-up ethnic and religious 
tensions in Iraqi society will encourage human rights abuses 
and even a humanitarian crisis. Such tensions have already 
exacerbated land tenure disputes and competing property claims 
inherent in any return effort.
    Third, human rights abuses. We're concerned that Iraqi 
regime's legacy of terror and persecution might encourage a 
popular backlash of retribution and score-settling. To date, as 
Dr. Collins pointed out, such retribution has been limited 
thanks in part to DART teams from AID, civil affairs units, 
U.N. agencies and NGO's, who are identifying potential tensions 
and working with community leaders to diffuse them. However, 
these tensions are still simmering and need to be carefully 
monitored and addressed if we are to avoid population 
displacements.
    Fourth, coordination between the CPA and U.N. agencies, and 
this is about getting value out of the U.N. system and letting 
the U.N. do the things that they have proven successful in 
other exercises. President Bush said that the United Nations 
has a vital role in play in postconflict Iraq. The U.N. brings 
resources and experience to Iraq's recovery efforts, and the 
administration and CPA are working to clarify the roles and 
responsibilities with U.N. agencies in Iraq.
    Mr. Chairman, we're all echoing the same themes here. 
First, there is no humanitarian crisis in Iraq now. Second, a 
lot of postconflict progress has been made because of some 
incredible efforts on a number of fronts by a number of 
incredibly talented and dedicated people. Third, but a lot more 
needs to happen quickly. And, fourth, security and public 
safety is key. Thank you.
    Mr. Shays. Thank you, Mr. Greene.
    [The prepared statement of Mr. Greene follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.034
    
    [GRAPHIC] [TIFF OMITTED] T1134.035
    
    [GRAPHIC] [TIFF OMITTED] T1134.036
    
    [GRAPHIC] [TIFF OMITTED] T1134.037
    
    [GRAPHIC] [TIFF OMITTED] T1134.038
    
    Mr. Shays. Mr. Kunder.
    Mr. Kunder. Thank you, Mr. Chairman. I request my statement 
be included in its entirety, please.
    We very much appreciate the opportunity to testify today 
and the interest of the committee in this important set of 
issues. I'll just briefly touch on three critical elements from 
my testimony: Planning issues, partnership issues, and the 
question of standby capacity.
    In terms of planning, in response to some of the questions 
raised by the chairman and the committee members earlier, we 
very much had a detailed planning process going back to last 
fall. We did, in fact, talk to the best experts we could find 
on Iraq, NGO representatives who had worked there, U.N. 
representatives who had worked there, academic experts. We 
literally got these panels together in areas like health and 
education and tried to get the best information we could, 
because we obviously had not been on the ground, and then based 
on our experience in dozens of previous disaster responses, we 
came up with planning targets. Obviously, we could bring more 
information to the committee on the planning documents 
themselves, but I just wanted to assure the chairman that there 
was a very substantial and detailed planning process which led 
to the outcomes described earlier, which is to say no 
humanitarian crisis in Iraq.
    In terms of partners, a number of members of the panel 
raised the question of multilateral participation. Obviously 
the U.N. is on the ground, has been on the ground, and a number 
of grants have been made to U.N. agencies, to UNICEF, to the 
World Food Program, to the World Health Organization. There is 
already substantial engagement with the multilateral 
organizations. With the arrival on the scene of the special 
representative of the Secretary General, Sergio de Mello, and 
his close relationship with Ambassador Bremer, I think that's 
going to be strengthened.
    But I want to assure the chairman that this work has been 
ongoing. We have been giving money to UNICEF, World Health 
Organization, World Food Program for months now. Same way with 
our NGO partners. And I'm sure you'll hear from some of the 
NGO's, and I say as a former NGO officer myself, clearly there 
are complex issues when the NGO's must operate in a wartime 
environment. But we are pleased that we have more than 20 NGO 
partners on the ground with USAID right now. We understand the 
complexities of dealing in an environment where the chain of 
command is primarily military because of ongoing operations, 
but we believe we have worked out and continue to work out good 
relations with our NGO partners on the ground.
    Third and last topic I'd just highlight is the question of 
standby capacity. Ten years ago when I worked in Somalia, we 
had relatively little idea of what skill sets we would need, 
but now, based on our experience in Somalia, Bosnia, a lot of 
these crises, we understand what sorts of troops, if you will, 
civilian troops, we'll need to deploy: human rights monitors, 
people who can rebuild ministries that have been destroyed, 
police trainers. And what we've advocated and what the 
statement speaks to is the need to look at the question of 
having standby capacity in these areas.
    Just as we would not think of going into war without having 
standby pilots and tank commanders and mortar units, we've got 
to start thinking as a government, we believe at AID, of having 
these categories of technical experts on call and ready to go, 
because just as the questions from the committee suggested 
earlier, we need these things as soon as our soldiers take the 
ground and look over their shoulders and look for support in 
rebuilding the country to ensure stability.
    Right now what we do is we draw upon excellent partners in 
the U.N. system and the NGO's and within our own technical 
staff, but we don't have the kind of standby capacity that we 
can drop in in those critical early weeks and months to really 
make a difference in stability and reconstruction.
    Overall, sir, the U.S. Agency for International Development 
has provided $829 million in humanitarian and reconstruction 
assistance in Afghanistan--excuse me, in Iraq. We know we've 
got a lot more work to do. We think we've averted the 
humanitarian crisis and jump-started the reconstruction effort. 
And with Ambassador Bremer's continued leadership, we would 
echo what General Garner said earlier, that we think we have a 
cup half full rather than half empty. Thank you.
    Mr. Shays. Thank you, Mr. Kunder.
    [The prepared statement of Mr. Kunder follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.039
    
    [GRAPHIC] [TIFF OMITTED] T1134.040
    
    [GRAPHIC] [TIFF OMITTED] T1134.041
    
    [GRAPHIC] [TIFF OMITTED] T1134.042
    
    [GRAPHIC] [TIFF OMITTED] T1134.043
    
    Mr. Shays. Let me ask again that the chart be put up that 
will show the 11 issues. Can you see it on the screen in front?
    I need to put on the record that I was speaking with 
Congressman Wolf, who has been working very hard to get into 
Iraq, and had to go with an NGO like I did in order to get in. 
And I was kind of complaining about the fact that CSIS got in 
to do what I want Members of Congress to do. And he said he had 
recommended that they go in to the Secretary of Defense, and 
that they were there under his recommendation. I want the 
record to show that I shouldn't view this rather as a negative, 
that it's somewhat of a plus even if it isn't Members of 
Congress. In other words, I'm not just looking to have Members 
of Congress go and have photo shoots. I want them to do what a 
Peace Corps volunteer would do. I want them to talk with 
people. I want them to listen to people. I want them to see 
their sweat and feel their anger, and I want them to, frankly, 
even feel the danger that may exist as we send NGO's there, 
who, I will say parenthetically, to me are my heroes. They go 
into the worst of situations, and they are at the mercy in some 
cases of whoever is in charge, and in some cases it may not be 
the government.
    So, at any rate, when they went through again, they said 
there are seven major areas needing immediate action, and I'm 
inclined to almost want to add to them. They have some of the 
11 that are there. What they don't have down is No. 5, they 
don't have No. 6, they don't have No. 8, and they don't have 
No. 11. So they don't have restoring basic service to Baghdad 
to prewar levels or better.
    Can I make an assumption from the four of you that--as bad 
as services there, they're at least to the prewar levels or 
better? Dr. Westin, if you don't know, tell me, but if have you 
a sense, tell me.
    Dr. Westin. We haven't gotten very far in our oversight 
yet.
    Mr. Shays. Dr. Collins.
    Dr. Collins. Yes. Mr. Chairman, we are watching this on a 
daily basis, literally getting daily reports, for example, on 
electrical supply and water issues and whatever. This is the 
best run-down after going through three of our statistical 
reports that I could come up with.
    Nationwide, electricity, end of July, beginning of August, 
we'll be at the prewar level. Propane: August would be the 
target for the prewar level. Oil will be problematical, 
probably will get to 2004, but still multibillion-dollar 
moneymaker for the regime this year. Health statistics right 
now indicate that services are somewhere between 75 to 90 
percent in each of the regions, and gasoline somewhere between 
65 and 75 percent of the prewar production going on in the 
country.
    We are not in most of these areas at the prewar level, but 
they're working on it. There are wide variations by region. In 
many cases, in many cases, things in the south and the north 
are much better than they are in the center or in areas where 
there was a lot of fighting.
    Mr. Shays. I'll just throw it out to whichever panelist 
wants to answer this. They didn't include preventing a fuel 
crisis. This is CSIS. It was in and is No. 6 in General 
Garner's 11 essential tasks. How do you think we're doing on 
fuel? You kind of answered that.
    Dr. Collins. In the production of fuel, we're doing very 
well and approaching the prewar levels. We're also at a point 
in time where electricity seems to be the main sore point and 
also the hardest to fix.
    Mr. Shays. Solving the food distribution system gaps.
    Dr. Collins. Food distribution is way beyond where it was 
right before the war began, and of all the statistics you 
cited, food, the food supply and food distribution in Iraq was 
probably the most favorable primarily because of the influence 
of the sanctions and the United Nations in the running of that 
particular system. But right now there is more food in Iraq by 
large measure than there was at the beginning of the war.
    Mr. Shays. No. 11, prevent disease, cholera, outbreaks?
    Dr. Collins. Minor cholera outbreaks someplace in the 
south, but no major problems noted. Lots of repair work going 
on in the health facilities and whatever, many of which were 
damaged severely in the looting.
    Mr. Shays. Now, in the 7 immediate tasks they covered, all 
the others, not 5, not 6, not 8 and not 11, but they also 
included decentralization is essential. They say the job facing 
occupation Iraqi authorities is too big to be handled 
exclusively by the Central Occupation Authority, national Iraqi 
Government Council. Implementation is lagging far behind needs 
and expectations in key areas, at least to some extent, because 
of severe constraints, CPA--CPA human resource at the 
provisional local levels.
    Bottom line is do you think decentralization--and I'll ask 
Mr. Greene or Kunder, and Dr. Westin, feel free to jump in when 
you have something that have you looked at as it relates to 
this.
    Mr. Greene. Decentralization is an important objective. 
We're trying to put teams out in each of the 18 areas. There 
are skeleton teams out there already, there are civil affairs 
people out there. We're going--we're also in the middle of just 
a massive recruiting effort to get a lot more people out. So 
it's a clear objective of the CPA and an important part of our 
political strategy.
    Mr. Kunder. Could I just comment very briefly on the 
humanitarian situation? I would agree with what Joe Collins 
just said. All in all, we're--in a lot of cases we're at about 
75 or 80 percent and climbing. The one area I would----
    Mr. Shays. Seventy-five to 80 percent of prewar.
    Mr. Kunder. Prewar levels.
    Mr. Shays. May I just put on the record, I don't think 
you'll disagree, prewar level isn't a great level.
    Mr. Kunder. That's just what I was going to say, sir. There 
was enormous deterioration under the Saddam Hussein regime. He 
did not invest in health care. We have an inconceivable 
disconnect in terms of the child mortality rates in Iraq and 
the basic wealth of the country. The rates are much, much 
higher than they should be. They are of impoverished nation 
levels. So he just simply didn't invest. The education system 
is in tatters. So they were lousy before the war. So we need to 
exceed them at some point, as the President has pledged we 
will.
    The one caveat I would throw out is in the water area, 
which leads to No. 11, the potential disease outbreaks because 
the level of looting was so severe at the water treatment 
plants and the sewage treatment plants. When we visited them in 
late June, literally the motors have been stripped out, the 
wires have been pulled out of the system. They need to be 
completely rebuilt. So you have problems with raw effluent 
going into the Tigris and Euphrates, which then other cities 
are drawing as their water source. So there is a potential 
there because of the looting.
    On your question of decentralization----
    Mr. Shays. Let me ask you, my simple mind tells me you just 
bring in a whole new piece of equipment, and you don't worry 
about all the rewiring.
    Mr. Kunder. There were about 16 major urban water treatment 
plants on the order of what we would find at the Blue Plains 
treatment plant here in Washington, DC. These are very 
substantial engineering projects to put them back together. We 
had, in fact, hundreds of motors running, and they--all the 
motors--literally bolts cut and the motors taken out.
    So, yes, we're bringing the equipment in with our Bechtel 
contract and doing the reconstruction, but it is a question of 
months until all of this can be done. And then you have damage 
to the lines as the--very indelicate topic we're discussing 
here, but as the effluent backs up and so forth, so then you 
have basic engineering that you have to do, sanitary 
engineering.
    So this is not a ``snap your fingers and fix it'' kind of 
problem, but we are clearly working on it because of the 
potential for disease outbreak.
    On your question of decentralization, sir, and the CSIS 
report talks about this, one of the things we anticipated and 
planned for was building local governance councils, recognizing 
that we were going to have to decentralize and create effective 
demand at the neighborhood and community level. We now have 85 
neighborhood councils up and running in Baghdad where 
technicians and women and people in the neighborhoods are 
joining together and expressing what their neighborhood needs 
are. As the CSIS report says, now the trick is bringing that 
demand into line with the overall governing council there. So 
we assign a high priority to these decentralization issues and 
working on them.
    Mr. Shays. Hey, Tom, I will ask to you circle 5, 6, 8 and 
11, just the numbers--5, 6, 8 and 11. What I'm doing is I'm 
going through Garner's 11 tasks, I'm going through what we were 
given by CSIS and what they have, what they did not--what they 
have in their list that is not in this list. So 5, 6, 8 and 11 
were not in their list, but now I'm giving what is in their 
list that is not in Lieutenant General Garner's list. So 
decentralization is one, and you all basically concur that it's 
an essential effort.
    Dr. Westin.
    Dr. Westin. I wanted to add that I think decentralization 
speaks to one of the challenges I mentioned, and that's getting 
the buy-in of the local population. So I think that you could 
take decentralization as one of the ways to overcome that 
particular challenge. And as we've seen, that's a very 
important challenge.
    Mr. Shays. Thank you. Their point 5 was the coalition must 
face a profound change in the Iraqi national frame of mind from 
centralized authority to significant freedoms, from suspicion 
to trust, and from skepticism to hope. Now, this is somewhat 
of, I guess, a no-brainer in a way, but their basic point is 
that it needs to be highlighted as a gigantic concern. And 
without reading their dialog that goes along with it, if you, 
all four of you, care to address the issue of a national frame 
of mind from centralized authority to significant freedoms, 
from suspicion to trust, and from skepticism to hope, do any of 
you care to address that issue?
    Dr. Collins. Yeah, I'll start. I'm sure everyone will have 
something to say about it.
    The CSIS report speaks to the issue of cultural change and 
changing the culture of the people, the political culture of 
the people, from an authoritarian one to a democratic one. This 
is difficult. It's not impossible. A number of other nations 
have made this leap before in the past.
    Two things, I think, are essential here in terms of steps 
to get there. The first, Mr. Chairman, I think, is the capture 
of Saddam Hussein and the remaining bigwigs, if you will, of 
the party out there who are intimidating people and preventing 
folks from taking actions which are obviously in their 
immediate self-interest. They're preventing them by, of course, 
physically intimidating them and making them fear the 
retribution of the Baathist spoilers. We're working hard on 
that, and we're taking an offensive approach to it. And General 
Abazaid had, I think, some eloquent words to say about it a few 
days before.
    The second part of all of this, I think, is for a national 
educational process to take place, and that has to be done in 
conjunction with the constitutional development process. The 
startup of the governing council in this past week or so is the 
critical first step in Iraqis developing a Constitution that 
both reflects majority rule and the protection of minority 
rights. Thank you.
    Mr. Shays. Thank you.
    Mr. Greene. The success of postconflict efforts is a 
function of time and resources, time and the number of people 
and the amount of dollars you're going to invest in. And so 
clearly there's an important time element to making the changes 
that the CSIS group emphasizes here.
    Two, there's a recognition of everybody involved with the 
CPA and all our people there that we talk to on a daily basis 
of the need to do exactly what you and General Garner were 
talking about earlier, be out more and talking to people and 
making those daily connections. But, three, this is where the 
security issue is a huge--has a huge impact and right now is a 
barrier to those efforts. You look at what is involved with 
getting our people out, you look at the threats that are out 
there, and it's a challenge. And it's fair to say that it gets 
in the way of this.
    Mr. Kunder. The only thing I would add, Mr. Chairman, is 
that to reiterate two points that General Garner made, No. 1 is 
I think you have to--I read the report, but the country has to 
be dissected. In the north you have a radically different 
attitude than you do in the central and a radically different 
than the south. So in some parts of the country I notice this 
sort of skepticism. We discovered hope in a lot of parts of the 
country, certainly in the north, and some optimism in the south 
where people have been liberated from oppression.
    And the other point I would make is General Garner's point 
about the silent majority. We had exactly the same experience 
he described, that people have their complaints, naturally they 
do, they're not getting electricity all day long, but then at 
the end of the day they come back, and the last comment is 
don't leave too early. Whatever you do, don't leave too early. 
So there is still a silent majority that I think is upbeat 
about the future and is just suffering from the short-term 
issues that we all know about and have been describing.
    Mr. Shays. Yes, Dr. Westin.
    Dr. Westin. We haven't looked very much, as you know, at 
Iraq, but GAO has done a number of reports looking at 
democracy-building activities of the U.S. Government in various 
parts of the world, including a report we put out this past 
spring looking at Latin America and Central American countries. 
And it's difficult to do. It's difficult to come up with good 
measures of success to know how you're succeeding. So I don't 
think we should underestimate the difficulty of doing this.
    In line also here with communication, I believe, in 
September, we'll have a report coming out on public diplomacy 
that focuses a lot on the public diplomacy efforts in the 
Middle East.
    Mr. Shays. Tell me again the studies that we can look 
forward to? What are they again? You had about four or five 
that you listed.
    Dr. Westin. Yes. For the work ongoing in Iraq?
    Mr. Shays. Yes.
    Dr. Westin. We have work under way looking at the total 
reconstruction effort, and our first effort under that is going 
to be looking at the planning, the planning that took place, 
who the players are, and how much they actually coordinated.
    The second effort that we have under way is seeking out and 
trying to find what efforts are taking place to find the assets 
of the former regime and how they can be returned to the people 
of Iraq.
    Mr. Shays. Around the world.
    Dr. Westin. Yes. As well as in Iraq, right?
    Mr. Shays. Right.
    Dr. Westin. The third effort, we're looking at the process 
of awarding the contracts, the initial contracts that USAID and 
DOD put out.
    And then fourth we're about to start work looking at the 
costs of the war, the whole reconstruction effort and projected 
costs.
    Mr. Shays. Let me, as it relates to--I'll read you one part 
of--they're saying the coalition must facilitate a profound 
change in the Iraqi national frame of mind from centralized 
authority to significant freedoms, from suspicion to trust, 
from skepticism to hope. They said, drastic changes must be 
made to immediately improve the daily flow of practical 
information to the Iraqi people principally through enhanced 
radio and TV programming.
    Now, my analogies may be way off, but if I'm on an Amtrak 
train and I want to get somewhere, and we start going at 2 
miles an hour for about 45 minutes, I know I'm going to be 
late, but the one thing I think I have a right to know is what 
the hell is going on. When we were coming down, two things 
happened. A bridge was hit, and there was a dead body on the 
rail. But knowing that made me a lot more tolerant in the bad 
service I was getting.
    On the House floor, we have a hearing, they're holding the 
vote open for 45 minutes. There's a reason. I want to know. 
There's all this rumor. I'm talking about Members. We hear that 
there's some dispute in Ways and Means and that somebody was in 
the library, and then somebody didn't like the vote, and then 
we had the whole bill read. I'm getting my information from 
lots of different sources, not pretty happy about it, and I 
would have just liked someone to just say we have a delay here 
and so on.
    Now, I use that analogy because it just seems to me like a 
no-brainer. They say drastic changes must be made to 
immediately improve the daily flow of practical information of 
the Iraqi people principally through enhanced radio and TV 
programming. Someone tell me what is happening in that regard.
    Dr. Collins. I don't know the story well, Mr. Chairman, but 
I do know that there are CPA-dominated media sites, both for 
radio and TV. There are psychological operations units 
operating throughout the country. And there's also local media, 
which is free media, which is being influenced to some degree 
by our folks and dealing with them.
    Getting the word out is extremely important, and it has to 
be done on a very basic level. Less than 3 percent of Iraqis 
have television sets, although TV is viewed by many as much 
more influential than those statistics would give out.
    Mr. Shays. Let me just say it is pretty much an established 
fact that only 3 percent of the Iraqi people----
    Dr. Collins. Have televisions. Much greater percentage, of 
course, inside of Baghdad, where satellite dishes, I'm told, 
are very much in evidence.
    A lot of very primitive work--not primitive, but basic work 
is being done to get the word out. For example, the other day 
it was brought to the attention of the CPA that a number of 
Iraqis had voiced the opinion that we were just like Saddam, 
that when we wanted to punish a particular neighborhood, we 
would shut down their electricity. And that, of course, was, in 
fact, the tactic of Saddam Hussein. It is not a tactic of us 
and the CPA.
    Mr. Shays. You know what? When our people are living in his 
palaces or having their offices in his palaces, it just strikes 
me that may be really superficial, and you might say, you know, 
that's a dumb comment to make, but to me it strikes me as kind 
of saying, you know, we've just changed places.
    Dr. Collins. There is that danger, but there is also the 
problem of where would you have a suitable facility for a 
large-scale organization. And I know you've probably been 
there, Mr. Chairman, about the palaces themselves are often 
talked about in much more grandiose terms than they are. Most 
of the places I went inside of--Mr. Bremer's so-called palace 
had no air conditioning. It was 120 degrees outside, and it was 
about 95 in most of the offices. So they're in many cases not 
much to brag about despite their grand titles.
    But they're working the information issue very hard, 
putting a lot of money against it, and also trying to at the 
same time jump-start a new telecommunications system inside of 
Iraq which will both spur communications and help in business 
development.
    Mr. Shays. Thank you.
    Anyone else choose to comment on this issue?
    Yes, sir.
    Mr. Kunder. First of all, the points are well taken. I 
think Joe is right. Everyone understands that this is a serious 
issue and more needs to be done. At the direction of Ambassador 
Bremer, our Office of Transition initiative has started--
because of the problems with radio and television and power, 
we've started now leaflets, posters on buses and downtown 
Baghdad to try to get in Arabic the CPA policy on electricity, 
for example, so the people understand why there are electricity 
shortages and so forth.
    I certainly don't want to claim that the problem is solved 
yet. We recognize it's a problem and start trying to reach out 
to the people, make sure people at least have an understanding 
of what the problems are.
    Mr. Shays. I can make the assumption that the number of 
people that have radios is significant, correct?
    Mr. Kunder. Significant, yes, sir.
    Mr. Shays. We were in the Peace Corps, and we didn't have a 
TV. A radio was something we listened to a lot, especially for 
news, especially to know what was going on around the world.
    Let me just take the last point the United States--did you 
want to deal with that issue? The United States needs to--this 
is point 6, not included in General Garner's list of 11. The 
United States needs to quickly mobilize a new reconstruction 
coalition that is significantly broader than the coalition that 
successfully waged the war.
    Now, this is the dialog that goes with that point. The 
scope of the challenges, the financial requirements, and rising 
anti-Americanism in parts of the country make necessary a new 
coalition that involves various international actors, including 
the countries and organizations that took no part in the 
original war coalition. The Council for International 
Cooperation of the CPA is a welcome innovation, but it must be 
dramatically expanded and supercharged if a new and inclusive 
coalition is to be built.
    I think this is significant stuff here. I'd like to know 
what your reaction is. You know, this is a third party coming 
in and looking at what's going on.
    Dr. Collins. Right.
    I had the opportunity to talk with John Hamre and some of 
his folks who were on this team and made the visit. I think a 
new coalition is being forged every day. In the security area 
we have--it seems to me to be a number of about a dozen nations 
interested in providing troops to the international security 
force who don't have troops there now. We have also a lot of 
fundraising efforts that are going on that have brought new 
members, new nations into the coalition. I think every day out 
there the CPA and the U.N. are deepening their cooperation on a 
number of issues.
    So I think in general this is an important point, and it's 
something that has already been started.
    Mr. Shays. Mr. Kunder.
    I'm sorry. Mr. Greene.
    Mr. Greene. It's an extremely high priority for us. There's 
a lot of activity on both the security front, on the funding 
front. Every day on this there is a large number of high-level 
exchanges on both fronts, extensive planning for a major 
international fundraising conference that will take place in 
October. And we completely agree with this, and we're putting 
in place a plan to do this.
    Mr. Kunder. I would just add, sir, I don't know what 
their--I know all the people who wrote this report. I'm not 
sure what their definition of supercharged is, but having 
nothing better to do this weekend, I'm off to Europe myself for 
a DAC meeting, Development Assistance Committee meeting, where, 
again, the whole topic will be mobilizing additional bilateral 
support and strengthening the coalition. So I think this has 
the full attention of the U.S. Government building the kind of 
coalition that is suggested in the CSIS report.
    Mr. Shays. Yes, Dr. Westin.
    Dr. Westin. I think this is, as I mentioned before, one of 
the particular challenges. Coordination among the multiple 
donors is a real issue. As I pointed out, in Afghanistan we saw 
that the Afghan Government was weak, and therefore there were 
many bilateral, multilateral organizations in essence doing 
their own thing, planning their own reconstruction efforts, 
etc.
    Mr. Shays. When I was in Umm Qasr for the brief 8 hours 
that are almost sacred to me now, thinking, one, how difficult 
it was to get in and how grateful I am to Save the Children for 
getting me in, under their rules, not my rules, what I'm struck 
with is that these NGO's know their stuff, but they're very 
dependent on security, and they're very dependent on funding 
from AID. So they're not saying, you know, we can do this by 
ourselves. It's a team effort. I was struck by the 
extraordinary poverty, by the lack of running water, by how 
people had to come to one area. It was a Third World 
environment for me, and yet what I was told was a port city 
that I expected to see more advanced.
    Now, when we were at the port, you had nice warehouses, and 
you had nice equipment to take things off ships, though you had 
a harbor that had no depth to it. My point, though, is that 
when we were there--all the NGO's were together, I wanted to 
get them all hugs because they don't realize how cool they are. 
To me this is extraordinary what they do.
    But one of the ingredients that they all told me at the 
time is we need the U.N. These folks know how to do this. I'm 
unclear as to what presence the U.N. has. And I just want to 
get a sense is this just a contest between the Secretary of 
Defense who's decided that we went into this without the French 
and the Germans? And I have no great disappointment in some 
ways that they don't get to call the shots, because I think 
they should have been involved earlier in helping us deal with 
Saddam Hussein and not on the sideline, but should they be 
there? Should the U.N. be there? First off, what is the 
presence of the U.N.? Clarify to me when we say the U.N. is 
there, how are they there?
    Mr. Greene. The U.N. has a very strong presence, had a 
presence before conflict, during conflict with national 
employees and postconflict. Emphasis has been on relief 
activities.
    Mr. Shays. With all due respect, during the engagement I 
don't think the U.N. was much involved.
    Mr. Greene. There were national employees involved with--
Iraqi national employees of U.N. organizations who stayed on 
the job protecting records for WFP.
    Mr. Shays. So let me just clarify. The U.N. facilities and 
activities that were there, those folks stayed there.
    Mr. Greene. The national employees. The international 
employees all left. And with any operation there's always a 
large number of national employees.
    Mr. Shays. OK.
    Mr. Greene. So the U.N. focus and institutional strength is 
on relief activities. Probably one of the biggest postconflict 
success stories is getting the public distribution system up 
and running again, and that has been largely a WFP operation 
with plenty of strong support from AID and civil affairs 
people, but WFP have been the ones that have gotten that going. 
UNICEF has done some pretty remarkable work on water and on 
power. It's not United Nations, but the International 
Organization of Migration is taking this, trying to get the 
property claims system in place and trying to register people 
who have claims. UNACR is working on refugee returns. And these 
are traditional areas for the U.N. to work on.
    I think usually what the point of discussion and the point 
of contention is, it's not in the relief area, not in the 
initial reconstruction area, it's the degree of U.N. 
involvement with the political transformation. And in that 
area, I think that Mr. De Mello has played a really key role in 
getting the Iraqi governing council set up and has been just a 
tremendous mediator, liaison between----
    Mr. Shays. And this is the basic U.N. envoy?
    Mr. Greene. Yeah. He is the head of the U.N. operation in 
Baghdad, and he has established the very good relationships 
with the many elements in Iraq and has been a very positive 
force in getting this government council established.
    Mr. Shays. So I'll put it in my uneducated terms. We don't 
have formal relations with the U.N. where they have the 
capacity to make a number of decisions; that they are working 
with the United States and the British Government, they're 
working with Mr. Bremer, let me put it that way, utilizing 
their resources, but not in a position to make command 
decisions.
    Mr. Greene. Well, they're working effectively as they work 
in many other situations where they're carrying out their 
programs in coordination with Mr. Bremer and his----
    Mr. Shays. So they're functioning almost like an NGO would 
function?
    Mr. Greene. Except they have broader, more formal 
international responsibilities in terms of protection, and in 
terms of carrying out their responsibilities, NGO's will feed 
into the structure that they've created.
    Mr. Shays. Mr. Kunder, would it be helpful if the U.N. was 
more involved?
    Mr. Kunder. Sir, the terms of relationship between the U.N. 
system and the Coalition Provisional Authority are spelled out 
in very, very precise detail in the Security Council 
resolution, which, of course, is approved by all the members of 
the Security Council. So, I mean, there were obviously weeks of 
debate leading up to the exact wording of that, but that was 
approved by the Security Council, so the precise terms are 
worked out. We met with Dr. De Mello, the head of the U.N. 
while they were there. He has his team on the ground. They are 
fully engaged with Ambassador Bremer's team. But the terms of 
it are spelled out in the Security Council resolution.
    What I was trying to say earlier is I don't think there's 
general recognition of the depth of our work with the U.N. on 
the ground. I'm looking through our list of grants, $20 million 
to UNICEF for health, $10 million for UNESCO for textbooks, $10 
million to World Health Organization for health programs. We've 
given more than $260 million of the taxpayers' money to the 
World Food Program to keep those--to keep number--where is it 
here--prevent the food crisis, solve the food distribution 
gaps, to keep No. 8 working. So there is very deep, ongoing 
cooperation between the CPA and other elements of the U.S. 
Government and the U.N. agencies on the ground.
    Dr. Collins. One thing, Mr. Chairman, that the United 
Nations could do, and I read in the paper that the State 
Department has already engaged them in the person of Secretary 
Powell on this issue, and that is to clarify their support. If 
you read U.N. Security Council resolution, I think it's 1473 
that Jim just referenced, there is support for the security and 
stabilization force in that resolution, although the United 
Nations is not running it. Since then we've had a number of 
countries who have used the U.N. as either a or an excuse, take 
your pick, for not participating in the stabilization force in 
Iraq, and that's not exactly right. And if the U.N. could 
clarify their support for that, some nations that are sitting 
on the fence may be able to come in.
    You mentioned France and Germany in a previous comment. The 
Secretary of Defense was asked about that last week, and he 
said that he would welcome their participation in the 
stabilization force. The French very quickly said that they 
wouldn't do that because the U.N. support for it is not 
sufficiently clear.
    But both France and Germany, it ought to be said, are 
participating very strongly in Afghanistan, particularly 
Germany, which is leading the international security assistance 
force in Kabul right now.
    Mr. Shays. Dr. Collins, let me just respond to that because 
that leads into a point I wanted to make. One of the things 
that my subcommittee gets to do is to travel around to our 
various commands. When I was in Tampa, we were there months 
ago, it blew me away because then one of the best kept secrets 
was--this was before our engagement in Iraq, before even the 
resolution, I believe, last year--and it blew me away the 
number of countries that were in the room that--at the time 
there were 40. You can't see it now, but there are 50 flags 
now, but there were 40 countries that were involved, and there 
were some sitting at a semicircle desk and then others just 
sitting in auditorium seats behind. And they were talking about 
what was happening every day, because that's where the command 
was for Afghanistan, and they would say, well, we don't have a 
transport plane, the Brits are going to take theirs in 4 weeks. 
And the French and the Norwegians and someone else said they 
would be able to fill in the gap of these four planes. So the 
commanding officer turned around and said, you know, who can 
fill in? And one said, well, we can. And they checked with the 
government.
    My point is there is lots of involvement, and it was 
extraordinarily impressive, and it was clearly a team effort. I 
guess now as a lead-in, what I asked my staff to do--I'm a 
Peace Corps volunteer, was a conscientious objector during the 
war in Southeast Asia, in Vietnam, and I'm being asked to vote 
to send troops into battle, which I know we needed to do.
    And so what I ask my staff to do periodically is print the 
names of the men and women who aren't coming home. Their names 
are right here, their names and their addresses. And I rejoiced 
that so few were lost originally. But I never want to ever say 
approximately 200. So we have right now in my latest list, 
updated, 219 who have been killed. Now, some not in battle, but 
tell a parent whose son was lost as two vehicles collide that 
they weren't killed in battle; 219 have been killed in action. 
And I can just look at names, Robert Frantz, I can look at 
Michael Deuel, I can look at Andrew Chris; these are all people 
who didn't come home to loved ones. Evan James. And names I 
can't pronounce.
    And I'm just wondering why we were doing such a bad job of 
getting others to share and be a part of this effort. So tell 
me why we aren't successful in getting some--like we are here 
in the Central Command in Afghanistan--why aren't we able to 
convince some of our European allies who know how to do better 
police action? In other words, our troops basically--I'm told 
they're taught to take the hill, keep the hill at whatever 
cost. But we have other countries that train their military 
folks to be civilian peacekeepers, and I just want you to speak 
to the value of doing that.
    I think, Dr. Collins, I'm addressing this to you. When is 
this going to happen? And what is it going to take?
    Dr. Collins. We have a large number of people, probably 
going to be greater than 20 nations, participating in the 
stabilization force. The United Kingdom and Poland will lead 
divisions. It is possible that a third and possibly even a 
fourth country will also contribute a division or a division 
headquarters and part of that division. Some of the nations 
that are also participating, Spain, Italy, Denmark, Honduras, 
El Salvador, Dominican Republic, Hungary, United Kingdom, 
Slovakia, the Netherlands, and active discussions are under way 
with Pakistan, Turkey and Morocco, we're likely going to have 
somewhere around 15,000 troops here in the next few months that 
come from countries other than the United States. And we 
continue to beat the drum. We continue to expand the coalition 
as best as we can.
    Mr. Shays. Thank you. I'm going to, just as we put in the 
Iraqi postconflict reconstruction field review and 
recommendations into the record, I'm going to put in the names 
into the record--a list of all the men and women who have died 
in battle. And I realized that there are also two that are 
still missing: Sergeant First Class Gladimir Philippe and 
Private Kevin C. Ott. Mr. Philippe is New Jersey, and Mr. Ott 
is from Ohio, and they are still missing in action.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.044
    
    [GRAPHIC] [TIFF OMITTED] T1134.045
    
    [GRAPHIC] [TIFF OMITTED] T1134.046
    
    [GRAPHIC] [TIFF OMITTED] T1134.047
    
    [GRAPHIC] [TIFF OMITTED] T1134.048
    
    [GRAPHIC] [TIFF OMITTED] T1134.049
    
    Mr. Shays. I'm going to ask counsel to ask some questions. 
Then we'll get to the next panel.
    Mr. Halloran. Thank you. There are just two areas I want to 
cover a little further because I know it will come up in the 
next panel: The issue of NGO neutrality and impartiality and 
how that can be maintained in this context. I'm hearing that if 
the U.N. flag flies, then I guess they're comfortable. Is it 
simply a matter of the breadth of the coalition? Is it a 
question of just freedom of movement? If the security situation 
stabilizes, they'll feel more comfortable and more at ease 
operating outside of the shadow of the force of one country or 
another? But what are the touch points or the sensitivities now 
that you're seeing between NGO's and the coalition in terms of 
coordinating aid that we're going to hear about in the next 
panel?
    Mr. Kunder. Having served both in the U.S. Marine Corps and 
Save the Children Federation, I sometimes am able to take a 
look at this problem from two unique perspectives. It's a very 
serious issue, and I've taken the time to talk a lot of our 
military colleagues about the importance of the NGO 
humanitarian space argument, which draws upon a long tradition 
of humanitarian law, the Red Cross movement, and basically 
battlefield conditions 150 years ago. It's a very important 
part of how the world treats humanitarian issues during 
conflict. At the same time I've taken a lot of time to talk to 
my NGO colleagues about the issues that military commanders 
must face on the ground in carrying out military operations. 
It's a complex set of issues that has been discussed 
extensively between the two organizations. I think----
    Mr. Halloran. There was a story after our last hearing that 
some of the--two or three of the major NGO's then active in 
Iraq were considering not kind of reupping for the next round 
based--concerned on this basis. Has that happened? Did you work 
that----
    Mr. Kunder. I'm sure some of the NGO's will speak for 
themselves, but it is my understanding based on newspaper 
reports and words I heard at conferences that some NGO's have 
chosen explicitly not to participate because the entire U.S. 
response, humanitarian and reconstruction response, is embedded 
within the command structure that the President has determined 
flows through the Department of Defense. And I respect that. 
These are good solid organizations. They've made an individual 
choice not to participate. They're a private sector 
organization. I respect that decision.
    But the point I would like to make is that as this debate 
goes on, I think it has been confused by the following: That 
much of the civilian/military interaction, NGO to military 
interaction, that has taken place since the end of the cold war 
has been in the context of U.N.-sanctioned peacekeeping 
operations like Bosnia so that the soldiers who showed up in 
Bosnia were working there under a Security Council mandate and 
had particular responsibilities to support humanitarian 
operations.
    In Afghanistan and Iraq we've been in different 
circumstances. We've essentially been in coalition combat 
operations, in my view, and so that the rules are different. 
The troops there are not assigned to support the civilian 
humanitarian organizations on the ground.
    Mr. Halloran. In those situations with the U.N. context, is 
it common to ask NGO's to kind of screen media comments through 
the governmental entity?
    Mr. Kunder. That's an important but side issue, in my view, 
sir. I mean, it is not related to the fundamental question of 
humanitarian space. What happened in this issue was that in AID 
doing its contracting work and grant work, we started inserting 
a standard clause in the grant and contract documents that 
said, notify us before you hold a press conference, if you're 
structuring a press conference, so that we can coordinate the 
message that we're delivering to the outside world. In the 
highly sensitive environment of Iraq, which we've been 
discussing, and to try to get some consistent message out to 
the Iraqi people about what is going on, we felt that such 
coordination was necessary. And, after all, I mean, we're not 
trying to impose restrictions on privately funded money, we're 
talking about taxpayer-funded grants. So we inserted that. It 
said, please come talk to us ahead of time, and let us know 
what you're going to tell the press so we can coordinate the 
message.
    I know some of the NGO's strongly objected to that. They 
viewed it as an infringement on their independence. And once 
again, I respect their individual judgments as private 
organizations, but we felt as Federal officers administering 
taxpayer dollars that it was appropriate to ask for such 
coordination before media messages were sent out in the complex 
environment of Iraq, and we had an honest policy dispute with 
the NGO community on that.
    Mr. Halloran. OK. Mr. Greene and Dr. Collins, I want to go 
to another topic, which is the issue of refugee movements you 
talked about earlier. The number of 500,000 came up. Could you 
describe who those people are, where they are, and are you 
saying that in the--what we have to look forward to in the 
future is that when we do build some roads and get the security 
situation settled, then we have this significant refugee 
movement to handle that is going to kind of be the next problem 
over the hill?
    Mr. Greene. I'd look at it as instead of a problem, a good 
thing that 500,000 Iraqis who were driven out of their country 
feel that the conditions are right and that they can return to 
their home country. I mean, it's an objective for us, it's an 
objective for them. Let's use Afghanistan as an example where 
now it's something like 2.5 million Afghani refugees have 
returned.
    And I think the coalition is going about it in a sensible 
way. CPA, Jerry Bremer are going about it in a sensible way in 
terms of let's make sure the conditions are right; let's make 
sure that we don't have 500,000 people streaming back into the 
country when there's not jobs, there's not security, there's 
not shelter, and let's get those things in place, sort of 
counseling calm among the refugee-hosting countries.
    You asked where are they. The 500,000 are primarily in 
Iran, Jordan, Syria, with smaller numbers in Europe who might 
not have official refugee status, but would still come back. 
Even now some are coming back unassisted, just voluntarily 
deciding the conditions are right and they want to be back. 
They want to participate in basically the rebirth of their 
country, and that's a good thing.
    Mr. Halloran. Another condition that could have would be 
some sort of legal system of a refugee comes back from Iran 
saying, oh, somebody is living in my house.
    Mr. Greene. That's a very important issue--property claims 
have been a very contentious issue in every postconflict 
situation, particularly the Balkans, Kosovo, and we need to get 
that assessment facility, that adjudication facility to take 
place. And it's a long, lengthy, complicated process that is 
still even now going on in the Balkans and Kosovo.
    Mr. Halloran. What about maybe, though, it was pointed out 
before that perhaps the only benefit of a totalitarian regime 
is they keep pretty precise records of things. So maybe the 
land records are complete anyway.
    Mr. Greene. A problem of all the looting is that a lot of 
records have disappeared.
    Mr. Halloran. OK. You want to comment on refugees in the 
work that you've done? I know the relocation issue in the 
Balkans particularly was--is still, I think, today a huge 
hurdle.
    Dr. Westin. Well, I think also it points to another of the 
underlying tensions that has to be taken care of. I'm not too 
familiar with the refugee problem with Iraq, but certainly our 
work on the Balkans and refugee issues that we've done 
elsewhere point out that it's likely to be a considerably 
difficult situation to overcome.
    One thing I did want to add, though, as we were talking 
before about the international forces and the involvement in 
the United Nations, it's my understanding that in Bosnia, in 
Kosovo, and in Afghanistan there was an international 
stabilization force, either NATO-led or U.N.-led, whereas I 
believe the U.N. resolution for Iraq points out it's the United 
States and Great Britain are occupying powers. And I'd be 
interested to hear what the NGO's had to say, if that makes 
them feel that they're viewed differently when they're working 
with the military as opposed to some of the other countries.
    Mr. Halloran. And finally, the reference before to the--was 
it 400 Palestinians living in a stadium?
    Mr. Greene. 4,000.
    Mr. Halloran. Where are they from, and what's their fate?
    Mr. Greene. These are some Palestinians who were sort of 
protected status under Saddam who now have been evicted out of 
where they were living. They're getting assistance from UNHCR 
and from ICRC, but 4,000 people living in the stadium, just 
like the same pictures you see of Liberians living in a 
stadium, it's pretty miserable and sort of ties into the 
overall Palestinian refugee problem in terms of finding a place 
for them to go to.
    Mr. Halloran. Thank you.
    Mr. Shays. Let me just conclude with being a little clearer 
about one or two things about our government policy. One 
relates to the Ba'ath party and the Republican Guard; and, Dr. 
Collins, this may be an area I need to focus with you. I'm 
unclear as to what our policy is. If you were a member of the 
Ba'ath party, you are not allowed to do what? Participate in 
government activities? You're not allowed to own business? What 
aren't you allowed to do?
    Dr. Collins. I don't know that policy very well. But it is 
my understanding that if you were a senior member of the Ba'ath 
party, that you are banned from office; and I'm not sure that 
there's anything beyond that right now.
    A lot of those people, of course, have had security 
problems here and there. There's a couple of different lists of 
people who are wanted for questioning. There, of course, was 
the deck of cards, which was the top 55 and; then there was 
another group on some kind of list that was often colloquially 
referred to as the ``black list'' and that was a few hundred 
officials. Those people, of course, are enduring much more than 
a ban on public participation.
    Mr. Shays. I think my focus really isn't on that, and I 
think this may be outside your area. The real issue is the 
accusation, which seems plausible to me, but I have a 
disadvantage. I haven't been allowed to go into Iraq to 
understand this myself because my government really is not 
eager to have Members of Congress go, but the accusation from 
the embedded press, which is allowed to go and in whom I have 
to get my information, has suggested that there are so many 
members of the Ba'ath party and the Republican Guard who are 
not major players who are being shut out of a future Iraq. The 
question I have is, is that true and is that policy going to be 
reexamined? And if you can't speak accurately to that 
information, then I would prefer that you just tell me that.
    Dr. Collins. I don't know where the dividing lines are. 
There has been a lot of concern also about mid-level military 
and security force officers as being the cornerstone, if you 
will, of these diehards who are attacking our troops. Beyond 
that, sir, I don't know the specific answer.
    Mr. Shays. Just in this final area as it relates to the 
debt which I am told we still don't have a handle on what Iraq 
owes to other countries pre war, but I'm told that it is 
unbelievable amount, in the tens and tens and tens of billions 
of dollars, a lot of it to Russia and France, is some of our 
reluctance to have France involved or Russia involved related 
in any way to that issue?
    Dr. Collins. I have never heard such a discussion that 
would suggest that we don't want France and Russia involved 
because of that. Iraq also has a tremendous debt to its once 
friendly neighbors like Kuwait. So it is a very mixed picture 
and a very serious problem.
    Mr. Shays. Any of you speak, though, to the issue of the 
burden of such a large debt and does that mean ultimately that 
oil revenues--originally, I said should come to the United 
States to pay for the war, and I think I was rightfully 
criticized--not criticized. Let me put it this way. I was set 
straight by the administration who said it is going to go to 
the Iraqi people. But is there a danger that if there's such a 
large debt that it's going to the debtors rather than to the 
Iraqi people and then we end up having to pick up the bill?
    Mr. Greene. The only thing I will say on this is that debt 
forgiveness is going to be a very hot topic of negotiation and 
already is.
    Mr. Shays. And can I suggest, that rather than saying ``hot 
topic,'' an important topic?
    Mr. Greene. Yes.
    Mr. Shays. Finally, last thing, and the full Committee on 
Government Reform is going to get into this whole issue of the 
contracts and who got them, but I would like a general reaction 
to what I think is plausible but may be totally inaccurate and 
that is, in some instances, there are a few companies that are 
incapable of doing the work. The task is so significant that, 
rather than doing what we usually do in government and that is 
take 6 months, and obviously the extreme was a year, to award 
the contract and get it out, we said we have to find the best 
and the brightest, give them the contract and let them run.
    Somehow it seems plausible to me, and yet I realize that I 
don't have any of my Democratic colleagues to then point out to 
me that some of these contracts seem to go to people that were 
friends of the administration. What are we to be expecting from 
you, Dr. Westin and Dr. Collins, Mr. Greene and Mr. Kunder? Can 
you comment on the need to get contracts out and are these 
contracts going to the best and the brightest?
    I saw three people pointing this way.
    Dr. Westin. I am willing to start. We do have work under 
way under the authority of the Comptroller General. We are not 
doing this as a result of any request. We are looking at these 
initial contracts and the process to make sure that they were 
given in accordance with the way that USAID is allowed to give 
contracts; and we're looking at all companies, not just 
singling out individual companies.
    Mr. Kunder. I sat in every one of those contract meetings, 
sir; and I can tell you exactly what happened. It was precisely 
what you said happened. We had to plan ahead. Nobody knew if we 
were going to war, and nobody knew if we went to war how long 
it would take to win the war, but we knew this much, that if at 
some point if we went to war and if the war--when the war was 
over that our soldiers would look over their shoulders and they 
would expect somebody to be able to rebuild the bridges and 
power plants and water treatment facilities and everything 
we're talking about today.
    And the last thing we wanted to have happen was then to 
wait 6 months while we had the Federal contracting procedures 
churn through the system. Then you would have had us up here 
asking us why on Earth we didn't have a contract in place. So 
we took the flexible authority that the Congress has given us 
under the Federal procurement procedures to do limited 
competition. We followed--our procurement executive, who will 
go to jail if he doesn't follow precisely the law of the land, 
told us exactly what we could do; and we followed the law to 
the letter.
    Mr. Shays. You said it a little inaccurately. You said you 
will follow him to jail. So I want you to say that over again.
    Mr. Kunder. I said our Federal procurement executive, who 
will go to jail if he does not----
    Mr. Shays. I want to emphasize----
    Mr. Kunder. If he doesn't follow the Federal procurement 
law to the letter on what precisely the Congress has given us. 
And within those flexibilities we then used the most flexible 
procedures we could according to law to shorten the list, 
shorten the timeframes; and then according to the letter of the 
law and the spirit of the law, we issued those contracts as 
rapidly as we could and got the firms out there who could do 
the job; and, thank God, they are doing the job. So the water 
treatment facilities are being rebuilt, and we are up to 75 
percent of electricity. And we welcome the GAO study. We're 
proud of the work that was done. And that's exactly what we 
did. We used the law the way you gave it to us to get the job 
done.
    Mr. Shays. You're doing a little lobbying with GAO right 
here, so you're welcome.
    Let me just say before you go, is there anything that any 
of you wants to put on the record that you think needs to be 
put on the record?
    Mr. Kunder. Sir, I would like to say something about our 
Federal Civil Service employees, because I have enormous 
respect for the NGO workers, having been one, and for our 
soldiers, but we have 35 civil servants out there unarmed 
walking around the countryside and another 320 contractors 
working for us who are also part of this picture, and they are 
living out there in pretty miserable conditions and doing a 
great job as well.
    Mr. Shays. I was going to close my remarks before I let you 
go to say the exact same thing. I guess I already said that our 
government employees are pretty outstanding and--very 
outstanding, and I am in awe of the men and women in our 
military who serve us, the men and women in the State 
Department and USAID. I am in awe of all the people in our 
government who are involved in this process. I know they are 
working 7 days a week, I know they have been separated from 
their families, and I know they believe they have a real 
mission here.
    I am just going to share one of my disappointments. I just 
wish that as a Member of Congress I could see that firsthand 
instead of having you tell me about it. I just wish the 
Secretary of Defense would at least allow us to go to some of 
the areas where General Garner has said it's safe and then 
allow us, as Members of Congress, to decide whether we're 
willing to go into places that aren't safe and live with the 
consequences as you all are doing, as the press is doing and 
the NGO's are doing. And I continue to appreciate the work of 
the GAO. I am a very proud Congressman to have such fine 
employees working in government.
    I thank each and every one of you, and I thank you for your 
kindness and patience. I know you had other commitments, and I 
didn't see a frown on your face even if you felt it in your 
heart and thank you for that. So we'll get to the third panel, 
but my hat's off to all four of you. Thank you so much.
    Our third and final panel is Ms. Tammy Willcuts, 
humanitarian operations specialist, Save the Children--and for 
the purpose of proper disclosure, Save the Children is located 
proudly in Westport, CT, a town I represent; Mr. Serge Duss, 
director of public policy and advocacy, World Vision, Inc., 
USA; and Mr. Patrick Carey, senior vice president for programs, 
CARE.
    We have three extraordinary organizations that will be 
testifying. I thank you all for your patience, and I need you 
to stand up, and I need to swear you in.
    [Witnesses sworn.]
    Mr. Shays. All three of our witnesses have responded in the 
affirmative.
    It's been a long day but actually very helpful to have you 
listen to the testimony that preceded you, and I am going under 
the good faith that our government welcomes you being honest 
with this committee--obviously, will be honest but that our 
government welcomes you being honest and that you do not need 
to fear that honesty somehow will hurt your organizations or 
the tasks that you have to do. I think that I'm saying that 
with the full confidence that the State Department and the 
Defense Department feel that way, and let me say to you as well 
that we all can relax. You have been in far worse circumstances 
than coming before Congress or a Member of Congress.
    I am also going to say to Ms. Willcuts, I will forever be 
indebted to what you did to allow me to spend 8 hours in Iraq; 
and I remember one thing that just blew me away. We were with 
someone who was from the press, Mr. Frank Luntz; and I was able 
to travel under the auspices of Save the Children, but he went 
in under the press. And at 11 p.m., we were talking about 
leaving the next day at 7 a.m., or 6:30--I think it was 6:30--
and, unfortunately, he didn't have a driver or a car; and I'll 
never forget, one of your employees--and I'm thinking I brought 
him all the way here and this guy is not going to go in, he 
can't ride with us. And your employee said, it's only 11 p.m. 
We're not leaving until 6 a.m. We've got 7 hours. That ``go 
to'' attitude resulting in his having a car and driver, and I 
thought that says a lot.
    At any rate, I have made it clear you are my heroes; and 
now I'll ask you tough questions to learn some stuff.
    So, Ms. Willcuts, thank you for being here. You have the 
floor, and you have 10 minutes or less.

    STATEMENTS OF TAMMIE WILLCUTS, HUMANITARIAN OPERATIONS 
 SPECIALIST, SAVE THE CHILDREN; SERGE DUSS, DIRECTOR OF PUBLIC 
 POLICY AND ADVOCACY, WORLD VISION, INC., USA; AND PAT CAREY, 
            SENIOR VICE PRESIDENT FOR PROGRAMS, CARE

    Ms. Willcuts. Thank you so much for inviting us to come and 
to speak about the issues that we have faced in Iraq and that 
you have had the opportunity to see firsthand. I spent 3 months 
in Basra in the south of Iraq leading Save the Children's 
humanitarian response.
    I would like to say that I have submitted a formal 
testimony, and I would like to just focus on three basic 
things.
    First of all, the importance that we have found in having a 
clearly differentiated line from the military. It's essential 
for the humanitarian aid agencies to have that and to be seen 
as impartial and independent.
    Second, the government and private relief and development 
agencies must prioritize the needs of women and children and 
the protection of women and children in all their dealings with 
the Iraqi people.
    Third, we would like to request that the role of the United 
Nations and other international partners be expanded and 
supported.
    Before I go into these in too much detail, I'd like to 
update you a little bit about our operations in Basra and in 
Iraq. Currently, we're employing 98 staff, 80 of whom are local 
Iraqi people. Our international staff come from 13 different 
countries. Our total funding equals approximately $11 million, 
the majority of which comes from USAID, from the Office of 
Foreign Disaster Assistance. We receive funding from private 
donors, from the International Office of Migration, from the 
World Food Program, and from UNICEF and from private donors 
individually for Save the Children. While our regional office 
is headquartered in Basra in the south, we also are working 
with children and their families in Baghdad, in Najaf and in 
Karbala.
    Some of the different programs we are involved in--we have 
five different sectors that we do.
    First and foremost, we work with protection and education 
of children. That's including, for example, preschool kids. 
We've distributed 100 preschool kits to different schools and 
children around the south.
    We're also working on mine awareness and hygiene education 
for these schools in and around Basra.
    Save the Children has an agreement with UNICEF and with the 
Minister of Health to reestablish the targeted nutrition 
centers that were defunct after 12 years to ensure that the 
nutritional needs of children are being met.
    We are also the implementing partner with the United 
Nations World Food Program in Basra and Najaf and Karbala, 
where we just completed our second monthly round of 
distribution of food to the vulnerable groups as well as those 
in orphanages, elderly homes and some other institutions. We 
have also been working to do some minor structural repairs in 
some of those same locations.
    We have a new grant from UNICEF to do a rapid assessment of 
protection needs of children throughout Iraq. Save the Children 
has been working to improve access to clean water in Basra. 
This has included things like replacing pumps and ball bearings 
and filters and things that come into a main pumping station 
and then are distributed throughout six different smaller 
pumping stations in Basra governance, which is ensuring clean 
water for children. And, finally we're involved extensively in 
providing medication and education to health facilities and 
health staff to ensure that the clinics and hospitals get up 
and running as quickly as possible.
    After 3 months in Iraq in addition to the 70 years 
experience that Save the Children has been doing humanitarian 
aid, we have learned some things about the way we found that 
humanitarian aid works for us. Those are, first of all, that 
reconstruction and rebuilding of societies takes a lot of time. 
It does not happen overnight. We have learned that it takes not 
only the physical structures of the buildings and the repairs 
of the windows and the doors, but it also needs the involvement 
from the social side. The children that are going to the 
schools need to be involved, the teachers, the parents, the 
neighborhoods so that they are supporting it.
    We have also learned that the backbone of our programs is 
our local staff, that our local staff have to be a part of what 
we were doing. They need to own the programs themselves. They 
need to be able to speak with authority and with knowledge 
about who we are and what we represent and what we are doing. 
Having that backbone allows us to have our next lessons 
learned, which is we need to have a good relationship with our 
community, and the best way we need to have good relationship 
is that the local staff we have can speak on our behalf because 
they are part of that community. They have the language, they 
have the context and the cultural knowledge.
    And, third, we found that having this combination of local 
staff who can support and understand our programs as well as 
the community support is what allows us to have an appropriate 
approach to security. Security is the main barrier for 
humanitarian aid in Iraq for our organization.
    One of our main goals is to find this humanitarian space 
that's been spoken of by several people today. We need to 
remain neutral and independent of the U.S. Military to ensure 
the safety of our staff.
    Today, the problems that we find for our staff and for both 
our international and local staff is crime, drive-by shootings 
and kidnappings. We've experienced two of these three just 
within a 1-week period. We experienced some drive-by shootings. 
We had a person who lived across the street from our office who 
was shot and killed. We have a small shop right across from one 
of our team houses which is also near the office where some 
armed bandits came and robbed this small store. So it's a very 
real issue.
    We have heard that an Italian NGO working in Basra has had 
three drive-by shootings in just a 5-day period. As a result of 
this, safety of our staff is the No. 1 priority for Save the 
Children.
    We are working to reduce the security risks for our workers 
by taking a number of steps. First among these is to hire a 
full-time security manager for our program in Iraq. Our 
security manager is tasked with providing the physical security 
of our office and our team houses as well as program sites. 
This includes things like lighting and walls and perimeter 
areas and making sure it's a safe place for all of our staff to 
come to work. It also includes having an appropriate and 
rigorous security plan which is followed by all of our staff.
    In addition, as I said before, we strive always to maintain 
our independence and our impartiality from the military. While 
doing that, we've also found that strengthening our ties with 
the United Nations has been an appropriate way to have ties 
with the community in a way that they understand, because the 
United Nations has had a presence in Iraq for a long time and 
people are familiar with what they represent and what they 
stand for. Increasing those ties has also been a way of 
increasing our security.
    Thank you very much for the opportunity to speak with you.
    Mr. Shays. Thank you for your wonderful testimony. Very 
helpful.
    [The prepared statement of Ms. Willcuts follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.050
    
    [GRAPHIC] [TIFF OMITTED] T1134.051
    
    [GRAPHIC] [TIFF OMITTED] T1134.052
    
    [GRAPHIC] [TIFF OMITTED] T1134.053
    
    [GRAPHIC] [TIFF OMITTED] T1134.054
    
    [GRAPHIC] [TIFF OMITTED] T1134.055
    
    Mr. Shays. Mr. Duss.
    Mr. Duss. Thank you, Mr. Chairman, for inviting me to 
testify before the subcommittee.
    Before I do, I would like to introduce into the hearing 
record a letter to President Bush that was sent yesterday and 
signed on by nine NGO's that are either working in Iraq or 
closely involved in advocacy with this administration. The 
letter essentially is asking the administration to address the 
problems that are hindering the fulfillment of its obligations 
as the occupying power in Iraq, and so I offer the letter here 
for the record.
    Mr. Shays. Without objection, it will be inserted in the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.056
    
    [GRAPHIC] [TIFF OMITTED] T1134.057
    
    Mr. Duss. World Vision is a humanitarian organization in 
the United States. It is a faith-based relief agency serving 
the world's poorest children and families in nearly 100 
countries. In fiscal year 2002, World Vision and its partners 
from 17 industrial countries raised a little more than $1 
billion in cash and gifts in kind from private and public 
donors.
    World Vision anticipates a 12 to 24-month program in Iraq, 
operating on an annual budget of approximately $10 million. 
This program focuses primarily on children's needs for food, 
health care, education and reconstruction of schools and health 
facilities. Funding sources include USAID, the World Food 
Program, the governments of Japan, Korea, Canada, Australia and 
New Zealand, as well as contributions from citizens in a dozen 
industrial nations, including the United States.
    Since beginning humanitarian operations in Iraq nearly 3 
months ago, World Vision has worked principally in the city of 
Mosul and in the western Iraq city of Al Rutba, along with 
towns and villages in the corridor from Jordan to Mosul.
    In Mosul, World Vision provides assistance to internally 
displaced persons. It provides an adequate supply of essential 
drugs to the region's 14 hospitals and has thus far 
rehabilitated 15 primary and secondary schools damaged by the 
war or post-conflict looting. We are planning to rehabilitate 
an additional 80 to 90 schools within the next 12 to 18 months.
    Mr. Chairman, you have asked World Vision and other NGO's 
to direct its testimony on progress made in achieving the 11 
essential tasks outlined by Lieutenant General Jay Garner in 
his testimony to the subcommittee on May 13. I am not able to 
address all these issues. However, from the viewpoint of a 
humanitarian relief and development agency I would like to 
offer four recommendations that World Vision considers most 
pressing to adequately address human need in Iraq.
    No. 1, a secure environment for relief and reconstruction 
must be established. The continuing violence, looting and 
instability makes security the greatest challenge in attempting 
to adequately meet humanitarian need. In the northern area of 
Iraq where World Vision works, insecurity prevents us from 
reaching some areas and serving others. Just a few weeks ago, 
fighting in Mosul wounded 18 U.S. soldiers and forced the World 
Food Program to declare 2 evacuation days. While World Vision 
did not leave the city, its staff was ``locked down'' and 
unable to work.
    Already this month there has been a series of hostile 
incidents in Mosul, including a grenade machine gun fire attack 
on a World Food Program office, a coalition force humvee was 
attacked, and a sustained 30-minute mortar attack was launched 
on Mosul airport. As a result of these and other incidents, 
World Vision has decided to increase its security and relocate 
temporarily the majority of its staff to Ahmen Jordan for the 
period of July 10 to 20. Two World Vision staff remain in 
Mosul.
    Insecurity is compounded by the lack of local Iraqi 
counterparts with whom to work. Banning all or most former 
members of the Ba'ath party--instead of just the top three or 
four levels--means that there are very few competent civil 
servants. Mid-level and lower level servants in totalitarian 
regimes are rarely fanatical supporters of the regime since 
they see the government's failings up close. The Coalition 
Provisional Authority would be wise to reinstate public 
servants subject to subsequent reviews of their history. 
Because World Vision and other NGO's typically work with local 
private and public partners, we are finding the virtual absence 
of a functional civil society a major challenge in operating 
humanitarian programs.
    No. 2, prioritize the needs of children. Half of Iraq's 
population of 23 million is under the age of 18. Children have 
suffered the cumulative and catastrophic effects of Saddam 
Hussein's regime and now the war. One of every four children 
under the age of 5 is severely malnourished. One in eight Iraqi 
children die before the age of 5. Nearly a third of all girls 
and almost 20 percent of boys are not attending primary school. 
The protection and development of children is the very 
foundation for the future of Iraq.
    High priority should be given to ensuring that children are 
enrolled in primary education as soon as possible and that no 
child faces discrimination in access to school. Every effort 
should be made to preserve official government records that 
establish children's identities. New documents should be issued 
to children whose records have been lost, confiscated or 
destroyed. Girls particularly require special attention and 
protection from sexual and physical abuse.
    No. 3, clearly separate humanitarian and military efforts. 
One of the lessons of the last few years with humanitarian 
assistance following military operations is that the military 
and humanitarian NGO's have different comparative advantages. 
Military objectives and humanitarian objectives are not always 
compatible, and sometimes they do conflict. Soldiers should do 
the jobs for which they are trained, and humanitarian 
professionals must be permitted to carry out their work without 
interference. At times, this means the military needs to 
establish security so that humanitarian agencies have safe and 
unimpeded access to people in need, but the roles of the two 
should never be confused.
    A blurring of humanitarian and military activities on the 
ground carries great risks. The safety of humanitarian workers 
often depends on local perceptions. If aid workers appear 
partisan, if we play favorites, if our assistance is based on 
anything other than genuine need, we risk jeopardizing 
ourselves as well as those we seek to assist. If armed forces 
or governments insist on jeopardizing the impartiality of aid 
organizations, there will be less humanitarian space, fewer 
donations from other countries and many more desperate people 
whose needs will go unmet.
    Finally, the fourth recommendation, Mr. Chairman, is foster 
international legitimacy through a leading coordinating role 
for the United Nations. World Vision welcomes steps that have 
been taken in the past 2 months to achieve a greater 
international role in the reconstruction efforts in Iraq. The 
U.N. vote lifting sanctions against Iraq, its recognition of 
the Coalition Provisional Authority as a legitimate interim 
government and the recent world economic forum in Jordan to 
discuss Iraq's future have been helpful developments toward an 
assumption of international responsibility for Iraq. Yet World 
Vision and other international NGO's believe that the United 
Nations must play a much stronger role in the development of a 
civil society in Iraq. We continue to ask President Bush to 
invite the United Nations to Iraq so it may carry out its 
traditional humanitarian coordination role.
    In closing, Mr. Chairman, I reiterate the four 
recommendations that World Vision considers most pressing in 
addressing humanitarian need in Iraq: No. 1, establish a secure 
environment for relief and reconstruction; No. 2, prioritize 
the needs of children; No. 3, clearly separate humanitarian and 
military efforts; and, No. 4, foster international legitimacy 
through a leading role for the United Nations.
    Thank you, Mr. Chairman, for the opportunity to testify; 
and I would welcome any questions from you after the testimony 
is over.
    Mr. Shays. Thank you, Mr. Duss.
    We have really heard two wonderful testimonies from this 
panel, very helpful, very well-organized.
    [The prepared statement of Mr. Duss follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.058
    
    [GRAPHIC] [TIFF OMITTED] T1134.059
    
    [GRAPHIC] [TIFF OMITTED] T1134.060
    
    [GRAPHIC] [TIFF OMITTED] T1134.061
    
    [GRAPHIC] [TIFF OMITTED] T1134.062
    
    [GRAPHIC] [TIFF OMITTED] T1134.063
    
    [GRAPHIC] [TIFF OMITTED] T1134.064
    
    [GRAPHIC] [TIFF OMITTED] T1134.065
    
    [GRAPHIC] [TIFF OMITTED] T1134.066
    
    Mr. Shays. Mr. Carey, I note you are a former Peace Corps 
volunteer. And so you are a fellow Peace Corps, as we were 
referred to by the folks in the countries we served.
    Mr. Carey. Mr. Chairman, thank you for the opportunity to 
testify today.
    CARE, of course, is a large international relief and 
development organization. We operate programs of poverty 
reduction and disaster relief in more than 60 countries around 
the world.
    As I am sure you also may have been aware from our previous 
testimony in May, CARE is one of the few NGO's that has had a 
long-term presence in Iraq. So we have been on the ground in 
Iraq in the last 12 years since 1991. After the last Gulf war, 
we stayed operational during the entire war except for a very 
few days except when it was physically impossible for our staff 
to continue. So we have a long-term history and commitment to 
Iraq.
    My testimony today relies both on detailed information from 
our staff on the ground in Baghdad and around the country as 
well as some observations from a recent visit that I made to 
Iraq as well.
    When we testified in May, we indicated that we felt the 
overriding priority in Iraq was reestablishment of law and 
order. In addition, we indicated that basic restoration of 
services, water, electricity, were of the highest priority and 
that it was important to prevent the deterioration of the 
health services to prevent humanitarian crisis. And, finally, 
we indicated that we thought it was critically important to pay 
civil servants salaries and bring those up to date.
    I am now testifying on behalf of CARE 2 months later, and I 
have to say those remain the priorities. Those have not 
changed. And we feel in general that adequate progress has not 
been made in all of those areas. We feel in fact that's also 
substantiated by the 25-member Iraqi governing council that has 
just come into being and on July 13 stated its overwhelming 
priorities were the return to security and the restoration of 
basic services. And of course we also feel substantiated by the 
study by the Center for Strategic and International Studies.
    In the security area, we believe that the day-to-day 
security situation prevents us from fully carrying out our 
humanitarian task in the way we would like to do it and diverts 
funds from helping poor people and malnourished children in 
Iraq toward security purposes.
    I would give just one anecdote, that we found a health 
clinic where we found significant numbers of malnourished 
children and wanted to distribute high-protein biscuits in that 
center. The people who ran the center said, please don't bring 
the biscuits here because, if you do, the looters will be back 
and we cannot prevent it. What they asked us to do was provide 
security devices--gates, barred windows and so forth--to 
prevent looting, rather than in the meantime feeding the 
children that needed to be fed out of that center. So we 
consider security to be a compelling ongoing priority that 
remains inadequately solved.
    In terms of basic services, the primary problem remains the 
supply of electricity in major parts of the country. Although I 
don't want to play the percentages game with some of the 
previous testifers, our on-the-ground staff indicate that as 
little as 2 weeks ago there were 3 full days in Baghdad without 
electricity and that the average electricity supply for most of 
Baghdad is down to 3 hours a day. That's certainly not prewar 
level--anywhere near prewar level; and, although there has been 
some progress, that cascades into a whole range of effects on 
health status, reestablishment of the cold chain for 
immunizations and so forth.
    In terms of the health crisis, the previous testifiers are 
correct. There is not a humanitarian crisis, but there are 
still alarming signals, and the basis for a health crisis still 
remains. Most recent reports indicate that, of referrals to 
health centers of children, that 22 percent or more of those 
referrals are for diarrheal diseases. That clearly is an 
indication of increasing sanitary problems. That's three times 
of the percentage rate of a year ago prior to the war, and it 
indicates a deterioration in the sanitary conditions brought 
about by lack of electricity supply, basic sewage services and 
safe water supply.
    In terms of salaries, we have seen some significant 
progress there, but some of the workers that we work with, for 
example, the National Spinal Rehabilitation Center, have yet to 
receive any back payment of salaries that were promised to them 
up to this date, so that still requires substantial progress.
    I just want to touch on three problems in the end and to 
make one or two comments also on previous testimony. One is we 
believe there is a real problem of access on the part of 
average Iraqis to the occupying Provisional Authority. When I 
was in Baghdad, Iraqi staff over and over again said that they 
really don't know what the Authority is doing, that it doesn't 
have a visibility and that it's difficult to access. Even we 
``as an NGO'' with prior agreement to meet authorities, are 
often refused entry at the palace for hours at a time, even 
though we have had preclearance to get in there. If we're 
having trouble doing it, I think you can imagine what the 
trouble for the average Iraqi is.
    And the symbolism of them being ensconced in the palace is 
not lost on the average Iraqi. Of course, partly for security 
reasons, it is a very isolated place; and we do not think that 
the authorities of the Provisional Authority are having enough 
contact on a day-to-day basis with average Iraqis.
    And I want to mention one particular thing. I can't comment 
on the overall deBa'athfication policy, but I can say how it 
affects us in the health sector, which is one of our primary 
sectors. And that is all of the senior levels of the health 
ministry were removed by the Provisional Authority under the 
deBa'athfication process without any vetting whatsoever of 
whether they were compulsory involved in the Ba'ath party or 
not. So all the director generals of health were removed. That 
removes a layer of civil servants some of which were not 
committed to the Ba'ath party at all and could help to restore 
the basic services. So we would urge reexamination of that 
policy.
    Next to the last, I would like to reemphasize that the 
issue of United Nations presence and greater international 
involvement in there is a fundamental one as far as CARE is 
concerned, and we think that needs to happen.
    I finally wanted make one comment on a comment that General 
Garner made about the NGO's as purveyors of complaints that you 
might hear. Although I don't think that our purpose in life is 
to complain, I think what our purpose in life is is to make 
sure that a humanitarian mandate is accomplished, and it's 
important for us to tell people when it's not possible to 
accomplish that humanitarian mandate, and I think we have a 
unique on-the-ground perspective. Certainly CARE and the other 
agencies has had an on-the-ground perspective of how things 
operate or how they don't operate, and it is important for us 
to tell you like it is, and I'm sorry if it's understood as 
complaints by General Garner.
    Thank you, sir. We really appreciate the opportunity to 
testify.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Carey follows:]

    [GRAPHIC] [TIFF OMITTED] T1134.067
    
    [GRAPHIC] [TIFF OMITTED] T1134.068
    
    [GRAPHIC] [TIFF OMITTED] T1134.069
    
    [GRAPHIC] [TIFF OMITTED] T1134.070
    
    [GRAPHIC] [TIFF OMITTED] T1134.071
    
    [GRAPHIC] [TIFF OMITTED] T1134.072
    
    [GRAPHIC] [TIFF OMITTED] T1134.073
    
    [GRAPHIC] [TIFF OMITTED] T1134.074
    
    [GRAPHIC] [TIFF OMITTED] T1134.075
    
    [GRAPHIC] [TIFF OMITTED] T1134.076
    
    [GRAPHIC] [TIFF OMITTED] T1134.077
    
    [GRAPHIC] [TIFF OMITTED] T1134.078
    
    [GRAPHIC] [TIFF OMITTED] T1134.079
    
    [GRAPHIC] [TIFF OMITTED] T1134.080
    
    [GRAPHIC] [TIFF OMITTED] T1134.081
    
    [GRAPHIC] [TIFF OMITTED] T1134.082
    
    Mr. Shays. I am struck by all three panels being very 
candid and appreciate the respect. It's very important to know 
what you're seeing and how you feel.
    I first want to ask, is there anything you disagree with 
any of your fellow panelists? Anything that was said by a 
fellow panelists that you would disagree? Is there anything one 
of your fellow panelists said that you would have wanted to 
emphasize but only slightly differently? Something you heard 
you said? Yes, I agree, but I really want to put the emphasis 
here.
    The reason I ask is you all have said the same thing but 
slightly different. But collectively your testimony is very 
powerful; and I'm going to make an assumption that, based on 
the question that I asked and you not responding in the 
affirmative, you basically agree with everything that was said.
    Now you had General Garner, and you mentioned--one comment 
that he said you wanted to respond to. What I appreciate about 
General Garner, he is a pretty straightforward fellow; and you 
know there are some things he said about what's going on that 
he would--even though he didn't say it as clearly as you, he 
happens to agree with some of the things you all have said.
    But is there anything that he said or anything in the 
second panel that you would take issue with, that you want to 
just--not to make a big deal out of it but that you see it 
differently and make sure that we're aware that you see it 
differently?
    Mr. Carey. There was one point I had a difference of 
opinion on. And that was in regard to the state of the 
infrastructure in Iraq before the war and after the war. And I 
agree certainly that there was a gradual deterioration of Iraqi 
infrastructure, because the regime did not pay attention to it, 
No. 1, and because of the sanctions, No. 2. Certainly that 
happened.
    But the infrastructure was not in as bad a shape, I 
believe, as General Garner indicated; and I think it's really 
important to understand that one of the major impacts on the 
lack of the basic services being able to operate because of 
lack of infrastructure was again not because of the bombing due 
to the war but because of the extensive post-war looting.
    When I was in Baghdad, people I talked with--for example, 
CARE operates significantly in the whole sewage treatment side, 
repairing sewage treatment facilities. When I talked to the 
U.N. agencies, they mentioned that the sewage treatment 
facilities were basically intact at the end of the war in 
Baghdad, including the main plants which processed a 
significant part of the sewage output of Baghdad. But then the 
looting was wave after wave of looting, and that was really 
what has brought down the infrastructure in Iraq and the cities 
to the state it is now.
    Mr. Shays. Your point is that after the major hostilities 
had ended, in the case of the sewage treatment plants, they 
were fairly intact; and so then and at that point we had an 
opportunity to secure them and we chose not to.
    Mr. Carey. In fact, the head of the U.N. there, Serge de 
Mello's predecessor, told me that when he went back to Iraq 
post conflict one of the first things he wanted to look at was 
the sewage treatment plant. It was being looted in broad 
daylight when he went back, that he had gone to the Provisional 
Authority on several occasions asking for a military presence 
at the main sewage treatment plant and had not been provided. 
And every time he went back to the sewage treatment plant its 
facilities were degraded to the degree that I agree with 
previous testimony that it will now be 9 months to a year or 
more before those facilities are restored.
    Mr. Shays. If that information is precisely as you 
understand it to be, it's got to be a bitter disappointment, 
because it would have been easy to have secured it, as opposed 
to having to rebuild it.
    Any other comments?
    Yes, Mr. Duss?
    Mr. Duss. Mr. Chairman, the previous government panel made 
mention that the U.N. is on the ground in Iraq; and that is so. 
But when the NGO's talk about the presence of the United 
Nations, we talk specifically about what has become the 
traditional and very effective coordinating role of the United 
Nations.
    Within the last 10 to 15 years, particularly in the 
conflict in Bosnia and even before, the U.N.--particularly the 
UNHCR, commissioner for refugees, that office has played the 
coordinating role for NGO's, for the ICRC and U.N. agencies to 
serve as a forum to cut down on duplication from the various 
international agencies that are on the ground in any particular 
country from coordinating its efforts. The U.N. coordinating 
role provided--was the intermediary in many ways with military 
that were on the ground in those countries, particularly 
Bosnia, Kosovo and a number of other places. And so the NGO's 
and the U.N. have worked very well together over these years in 
various post-conflict situations.
    The U.N. in this traditional coordinating role is not 
present in Iraq, and it makes the coordination of our work and 
the communication between ourselves and the various 
international humanitarian efforts there much more disjointed. 
That's why this letter was sent yesterday to President Bush 
asking him to strongly reconsider his decision and to invite 
the U.N. in the coordination role that we have asked for.
    Mr. Shays. You know what I would love? I would love the 
President to meet with the three of you, and I think it would 
be a wonderful thing for him to have this information shared 
with him, and then he could ask meaningful questions of his 
Secretary of Defense and his Secretary of State and the people 
that work with him. He needs to hear the very message you're 
giving. I would love to see if there's a way that could happen.
    Mr. Duss. Mr. Chairman, if you could arrange it, I think 
we'll all be available.
    Mr. Shays. That goes for Members of Congress. If the 
President wants to see you, you drop everything else, for 
obvious reasons.
    I just want you to talk a little bit more--I'm trying to 
put your testimony about the U.N. and its participation and its 
coordinating role--because I remember Ms. Willcuts explaining 
that to me when I was in Iraq a few months ago. At that time, 
she was saying that we needed to do that, that they play that 
kind of role. I think that's correct.
    Ms. Willcuts. Yes, it is.
    Mr. Shays. And I'm having this slight suspicion were you 
also in the Peace Corps?
    Ms. Willcuts. Yes, I was. I was in Sri Lanka.
    Mr. Duss. I served overseas.
    Mr. Shays. I apologize to Ms. Willcuts because I think I 
now remember our conversations about that. But I want to 
understand what it would take to have the U.N.--what I get a 
sense is that the U.N. is being treated just like--treated like 
it's just another NGO, and it's there doing some of its relief 
work that you all would be, but you're saying it could take a 
greater role and usually does. And I guess what would it take 
to have that happen? Do we have to have a U.N. resolution to 
have a different relationship or is it a fairly simple solution 
that could get them in in a much bigger way?
    Mr. Carey. One thing I wanted to mention in regard to that, 
I understand that October there's going to be a pledging 
conference sponsored by the United States or the coalition.
    Mr. Shays. When?
    Mr. Carey. Coming up in October for pledges of funds. It's 
common in these international situations to have pledging 
conferences and to invite various potential donors.
    I think that one of the great ways that you could sponsor a 
broader U.N. role would be to move to have the U.N. sponsor 
that pledging conference, rather than having it be done by just 
the coalition, and that would be one way to reformalize the 
U.N. presence. And I think some members are hesitating to come 
in as fully as they might because they would like to see a more 
formal U.N. presence and coordinating role. This would be a 
perfect opportunity for that to happen and might bring in more 
money. And I note the more money we bring in from international 
sources, the less we will be paying out of U.S. taxpayer 
sources, in reference to one of the Members this morning. The 
greater international presence we have, the less reliance we'll 
have to have on U.S. funding of this rebuilding.
    Mr. Shays. I happen to believe that we have two giants 
serving as secretaries, Colin Powell as Secretary of State and 
Donald Rumsfeld as Secretary of Defense; and I think that an 
administration is only as good as its people who serve under 
it, particularly in those roles, but I am just wrestling with 
this feeling that somehow I'm having a hard time understanding 
why--and this may sound arrogant for me to say it, since I 
haven't been there, but it seems so logical to me that the 
things that you have been suggesting to us happen.
    And I wonder is it not happening because to do it would be 
an implicit acknowledgment that a mistake or a mistake had been 
made? And I think, so what? Because, ultimately, the reality is 
that this will only get worse, that we won't be able to hide it 
and we won't be able to succeed as quickly as possible and we 
will lose more men and women in the process and you all won't 
be able to do the jobs that you can do as well as you can do it 
if things were different.
    So do you have some questions? I am going to ask the 
professional staff who--I should say a new doctor, having 
gotten his degree.
    Dr. Palarino. I'd just like to address the issue, if I may, 
of impartiality that some of you have mentioned in your 
statements and just try to understand that as you 
operationalize it, if you will, on the ground in Iraq and in 
other situations. I understand the point is to the NGO's 
separate from the governments involved, but do you ever rely on 
the occupying powers, if you will, for any situations like 
that? If you would like to comment on that, I would appreciate 
it.
    Ms. Willcuts. I think there are appropriate circumstances 
where the humanitarian aid community and the military have 
interactions, and I think--at least from my experience, 
relating mostly to security. We've relied on information that 
we get from the coalition in regards to certain areas where 
we're planning to go for program assessments or field visits or 
something. I think those are appropriate circumstances for us 
to have that interaction.
    But, again, for security reasons it's so vital for us to 
have some distance there so there's no confusion amongst our 
staff or amongst the community about who we are there working 
for and what we are there to accomplish.
    Mr. Duss. In my testimony, I mention about blurring of the 
lines between civilian NGO personnel and the military; and in 
previous conflicts where the United States has not been an 
occupying force, where it was an international force, that was 
rarely a problem because the international force that was 
there, which also included Americans--and Bosnia is a good 
place in point--the lines were clear and military never 
conducted their duties and responsibilities dressed as 
civilians, and there was never confusion in the minds of the 
national population who is military and who is NGO.
    This problem cropped up in Afghanistan when American combat 
forces, I would imagine in an effort to be able to work in 
certain areas, took off their military uniforms and dressed as 
civilians. Now the national population there knew who was 
military, but then they began to assume that NGO's were also 
military because the American military was doing humanitarian 
work. They were rebuilding schools and some other projects and 
out of the goodness of their heart. But they saw military doing 
humanitarian work, NGO's doing humanitarian work, and the 
conclusion was that the NGO's were also military.
    If there was some type of action where someone was shot or 
killed or there was a negative reaction from the local 
population and they took retribution on the military, NGO's 
would also be involved because the assumption in the mind was 
that these are all military. That's why we have pleaded over 
and over in Afghanistan--it has not been a problem yet in 
Iraq--military, they have their job and have the uniforms, 
stick to it. The NGO's, we have our job, we have our uniforms, 
which is what we wear, we stick to that as well.
    It doesn't mean we don't coordinate. We do. We need each 
other, particularly for security. We talk to each other all the 
time. But in terms of carrying out our responsibilities and the 
ways we do it, that is the key point of this discussion.
    Mr. Carey. I certainly agree with my colleagues. We, too, 
work in the security environment created by the military 
authorities in Iraq. We have no way to avoid that. And we, too, 
coordinate and try to coordinate on a day-to-day basis.
    I think the problem comes in, again, when there is a 
confusion between the U.S. Military Provisional Authority and 
its mandates and the NGO's as a community and their 
humanitarian mandates. And while there is a considerable 
overlap between those two, they are not one and the same.
    While we are very grateful for all of the support we get 
from the U.S. Government from a variety of sources, and one of 
the major grants we have in Iraq is from the Office of Foreign 
Disaster Assistance of USAID and we're grateful for that, the 
fact is, though, we are not an instrument of the U.S. 
Government in Iraq. We have our own humanitarian mandate in 
Iraq.
    So when we talk about creating a humanitarian space, it's 
the ability to differentiate between that, between being an 
instrument of the U.S. Government and between solely 
concentrating on our humanitarian mandate regardless of 
politics and regardless of the political aims of the other 
parties involved.
    Mr. Duss. Just one further point, Mr. Chairman, on this.
    We do receive funding from government, but we also receive 
funding from the American people as well. And for many people 
around the United States, the only news they get about what is 
taking place in the developing world is not from their 
newspapers, certainly not from the nightly news unless it's a 
catastrophe, it's through the communication vehicles that NGO's 
like ours and many others have. So we are serving the American 
people primarily, but we are also using taxpayer resources that 
flows through the government for the work that we do as well, 
and sometimes this point is not recognized or understood by our 
government partners.
    Mr. Shays. Thank the gentleman.
    We are wrapping up here. I would like to know--and if it 
doesn't apply then we don't have to do an analogy here--but 
does Bosnia, Kosovo or Afghanistan have any comparisons to the 
Iraqi situation and, if so, which one most is like what we are 
facing in Iraq? I mean, you all have been involved, your 
organizations, in Bosnia and Kosovo and in Afghanistan. Are 
there some lessons we can learn from those experiences?
    Mr. Carey. I think that when we testified last time we 
mentioned that some of the lessons learned from experiences 
like Afghanistan and Kosovo, that there were four major lessons 
that we took away from those. No. 1 was the importance of 
rapidly filling the security vacuum that was created by the 
military situation; second was the importance of establishing a 
broad international presence as soon as possible in a situation 
like that to bring in as many players as possible; and the 
third was the need to have a long, multiyear commitment for 
reconstruction in a situation like Afghanistan or Kosovo; and, 
finally, the need to have a quick return to civilian control in 
those circumstances. And we would say those lessons apply in 
Bosnia, they apply in Kosovo, they apply in Afghanistan, and 
they certainly are applying in Iraq.
    Mr. Shays. What I'm hearing you say, you're not going to 
have a quick involvement of the civilian population if somehow 
the lower eschelon in the Ba'ath party and the civil servants 
aren't able to participate.
    Mr. Carey. And if there's not better interaction between 
the Provisional Authority and everyday, ordinary Iraqis.
    Mr. Shays. That I think is very clear for Peace Corps 
volunteers to understand without being arrogant. I mean, that's 
the one thing we know so well and that is you have to have that 
interaction.
    When Ms. Willcuts took me to Iraq, there was a gentleman 
named Abdullah Husan Mohammed, and he almost put his hands on 
my shoulder. I had a conversation with him, and he had made a 
number of points. One of the points he was making was, he said, 
I just wish you Americans would understand that when an Iraqi 
woman does this when you extend your hand out she is not 
withdrawing her hand in disappointment. She's saying, I respect 
what you have done, thank you, but in my culture Muslim women 
don't shake hands with strangers. But please know I appreciate 
the gesture. He said, I just wish you would, instead of being 
offended, just appreciate what that meant.
    But then he almost put his hands to my shoulder, and he 
said, you don't know us and we don't know you. And too this 
Peace Corps heart it said, we need to get to know each other a 
bit, and then some good things can happen from it.
    And I think there are some lessons to learn from, frankly, 
what happened in South Africa, how they knew in order to 
rebuild their society that they had a White population that had 
been very much involved in the infrastructure and they couldn't 
turn their back on that population but they could hope there 
could be some redemption. And I can get pretty emotional just 
thinking about the lessons learned there.
    So, at any rate, let me ask this last area. I am not 
looking to end on a negative note, but I do want to face 
reality. Some of the things you say should happen aren't 
happening. If they don't happen, are things going to get worse? 
Are we going to just muddle through? Is it going to take us 
longer and then people will never realize that it could have 
been done better or do you think things just get worse? Want to 
give it a try?
    Mr. Carey. I would refer to that Center for Strategic and 
International Studies study also that the window is closing, 
that if the situation doesn't improve dramatically in terms of 
basic security, people still don't feel secure to go to school, 
they don't feel fully secure to open businesses and indulge in 
economic activity, that the situation will rapidly deteriorate 
as the Iraqi population loses confidence in our ability to do 
the job. And so we have a relatively short window of 
opportunity. We need to redouble our efforts to meet those 
primary tasks that General Garner identified.
    Mr. Duss. One of the many lessons that we learned providing 
humanitarian aid in the post-Soviet world and post-conflict 
situations and even during conflict is that unless populations 
can return to somewhat of a normal life where people go to 
work, children go to school, teachers teach and some semblance 
of life, it can only take place if there is security. And it is 
the same for Iraq as it is for Afghanistan. Unless there is 
security where business can take place, money can be made, it 
will be very, very difficult for the situation in Iraq to 
improve.
    Mr. Shays. Ms. Willcuts.
    Ms. Willcuts. On the same note again with security, I think 
to have--in conversations I have had with some of our own staff 
and women that I have met, Iraqi women, they are afraid still 
to send their children to school, as Mr. Carey had mentioned. 
Some of our local staff have their fathers or brothers escort 
them to our office every day to work because there is fear of 
abductions, there's fear of kidnapping and these gangs that are 
still roving around. And I think it's an opportunity for the 
military to make a difference right now and show that we are 
serious with the commitments we've made in coming there and 
doing what we started.
    People are waiting to see. I think people are withholding 
their judgment until they find out how this all turns out, what 
kind of services are we going to provide. Are we going to 
follow through on the promises and commitments that we have 
made. I don't think it's too late, but we will have a lot to 
lose if we don't follow through on these things and 
specifically security for women and children.
    Mr. Shays. Is there anything you all want to put on the 
record before we adjourn? I know Mr. Bremer fairly well, even 
though I kept calling him Paul when his friends call him Jerry. 
But I believe him to be a very intelligent person. And I would 
like to think that he hears what you're saying. I said I was 
kind of concluding, but I want to know does your organization 
have the ability to have the kind of conversation we're having 
with him?
    Mr. Carey. Not so far.
    Mr. Duss. I think we've spoken in some way shape or form 
about the difficulty we have in accessing CPA. And as Pat has 
said, the fact that the provisional authorities housed in the 
palace are far away from the population, that's--perhaps we 
don't read it that way but the meaning of that is very 
significant for the people of Iraq having access to that.
    Mr. Shays. That point was made. I'm going to ask you, Mr. 
Duss, if you have extensive interaction with Mr. Bremer.
    Mr. Duss. No, I haven't, but I know our staff on the ground 
have not.
    Mr. Shays. Ms. Willcuts.
    Ms. Willcuts. No, I've had no opportunity to meet with him.
    Mr. Shays. Or your people in any way. Well, maybe we're 
starting too high. Maybe we should start with Mr. Bremer and 
then to have you interact with the President. You all have been 
and not surprisingly a wonderful panel. And your statements 
were so helpful that in many cases, questions weren't even 
necessary. I just appreciate your patience. I appreciate all 
your good work. The reason I feel positive is that you all are 
doing the work you're doing. And that you all are so capable. 
And your organizations are so capable.
    And I'll conclude by thanking the Science Committee. This 
is not our general committee. And it's a lot nicer. We're not 
up as high and it's not as tall a ceiling. It's a little 
cozier. I think we had a good hearing today. Really appreciate 
the three of you. And with that we will adjourn this hearing.
    [Note.--The GAO report entitled, ``Foreign Assistance, Lack 
of Strategic Focus and Obstacles to Agricultural Recovery 
Threaten Afghanistan's Stability,'' may be found in 
subcommittee files.]
    [Whereupon, at 3:18 p.m., the subcommittee was adjourned.]


</pre></body></html>
